   Semiannual Report
of the Inspector General
U.S. Small Business Administration
               Fall 2002
         A Report to Congress
    April 1, 2002 - September 30, 2002
        Pursuant to Public Law 95-452
.




ii
                                             Foreword


I am pleased to submit our Semiannual Report on the Office of Inspector General’s (OIG) activities from
April 1, 2002, to September 30, 2002.

This will be the last Semiannual Report that I prepare as SBA IG. Over the past several years, OIG has
successfully carried out its mission to address fraud and to promote effectiveness in SBA programs. This
reporting period is no exception. The Office issued 19 reports on efficiency and effectiveness activities,
primarily based on OIG audit and inspection activities. OIG investigations resulted in 19 indictments and
15 convictions for criminal violations. The Office brought its collective experience to bear in reviewing
229 legislative, regulatory, policy, and procedural proposals concerning SBA and Government-wide
programs. Overall, OIG dollar accomplishments from all activities totaled more than $39 million. All of
this was accomplished with an appropriation of $11.9 million and an average staff level of 107. I am truly
proud of the accomplishments of OIG’s dedicated and professional staff.

We continued to focus our efforts on several key areas identified in our current strategic plan: financial
management, information systems and computer security, lender oversight, high-risk issues, and new
SBA initiatives. Discussion of our work in these areas can be found in the body of the report. We also
completed a new strategic plan for FY 2003-2007, which will guide the Office’s work for the next several
years. The plan emphasizes prevention and deterrence, early identification of risks and management
challenges, and a more integrated approach within and across our audit, investigation, and evaluation
functions. I anticipate that future semiannual reports will discuss OIG accomplishments within the
context of the new plan’s goals.

It has been a privilege to serve at SBA over the past several years, and I look forward to continuing to
serve the President, the Congress, and the American people at the Department of Agriculture. Any
success that this OIG has had would not have been possible without the active support and interest of
Administrator Barreto and the Agency’s senior staff, and of our oversight Committees in the Congress.
I truly appreciate all you have done to support our work. While SBA continues to face many challenges
ahead, I am confident that OIG will continue to provide independent and expert advice. I leave SBA
knowing that the Office has a clear direction, capable professional leadership, and a bright future.




Phyllis K. Fong
Inspector General




   Semiannual Report September 2002
                                   Table of Contents




       Chapter                                                  Page

       SBA Overview                                               1

       Significant Activities and Management Challenges           3

       OIG Profile                                                11

       OIG Activities                                             13

       Statistical Highlights                                     36

       Inspector General Act Statutory Reporting Requirements     40

       Table of Appendices                                        41




Semiannual Report September 2002                                       i
                                                                       SBA Overview

       Office of Inspector General                                                                                                Office of Advocacy
                                                                             Administrator
       Office of Congressional & Legislative                                                                                      Office of Field Operations
       Affairs
                                                                           Deputy Administrator
       Office of Hearings and Appeals                                                                                                 Regional Administrators


       Office of Disaster Assistance                      Chief Operating                     Chief of Staff                      Office of Equal Employment
                                                                                                                                  Opportunity & Civil Rights Compliance
                                                          Officer
       Office of General Counsel
                                                          Office of the National              Counselor to                        Office of Communications
                                                          Ombudsman                           Administrator                       & Public Liaison
       Office of Veterans Business
       Development
                                                                                                                                  Office of the Chief
                                                                                                                                  Financial Officer




Associate Deputy                       Associate Deputy                               Associate Deputy                            Associate Deputy
Administrator for                      Administrator for                              Administrator for                           Administrator for
Capital Access                         Entrepreneurial                                Management &                                Government Contracting &
                                       Development                                    Administration                              Business Development


     Office of Financial Assistance            Office of Business and Community             Office of Chief Information Officer          Office of Government Contracting
                                               Initiatives


     Investment Division                       Office of Small Business Development         Office of Human Resources                    Office of HUBZone Empowerment
                                               Centers                                                                                   Contracting


     Office of Surety Guarantees               Office of Women’s Business Ownership         Office of Administration                     Office of Business Development



     Office of International Trade             Office of Native American Affairs                                                         Office of Policy Planning & Liaison



     Office of Lender Oversight



     Agency Overview. The Small Business Administration (SBA) was established in 1953, to assist small
     businesses from startup through the many stages of growth. SBA’s two major goals are to help small businesses
     succeed and recover from disasters. SBA offers many services to entrepreneurs, including assistance with
     developing a business plan, obtaining financing, marketing products and services, and addressing management
     issues. SBA programs are delivered by a network of field offices in every state, the District of Columbia, the
     Virgin Islands, Guam, American Samoa, and Puerto Rico. SBA has an FY 2002 appropriation of $768.5 million
     and has 4,045 employees, including Disaster Assistance and Office of Inspector General (OIG).

     The Office of Capital Access has several loan and other programs that assist small businesses. The Section 7(a)
     program is the largest business loan program. Currently, the Agency is authorized to guarantee up to $1 million
     of a small business loan on a loan up to $2 million. The maximum guarantees are 75 percent for loans more than
     $150,000, and 85 percent for loans of $150,000 or less except for Export Working Capital program (EWCP)
     loans, which have a 90 percent guarantee. Under Section 7(a) of the Small Business Act (Act), SBA is authorized
     to offer a variety of specialized products and processes including the Certified and Preferred Lender (CLP and


      Semiannual Report September 2002                                                                                                                                         1
                                                 SBA Overview

    PLP), Low Documentation (LowDoc), SBAExpress, Community Express, Pre-Qualification, CAPLines, Defense
    Loan and Technical Assistance (DELTA), Community Adjustment and Investment Loan, EWCP, International
    Trade Loan, Energy and Conservation Loan, and Pollution Control Loan programs. In addition, Section 7(m) of
    the Act authorizes SBA to provide loans and grants to not-for-profit organizations that use these funds to provide
    small loans (currently up to $35,000) and technical assistance to small businesses. The Small Business
    Investment Company (SBIC) program provides equity capital, long-term loans, debt-equity investments, and
    management assistance to small businesses, particularly during their growth stages. All of the specialized
    business loan programs are intended to provide entrepreneurs with the financing vehicles needed to help them
    start or grow their small business. The Office of Lender Oversight (OLO) was established to coordinate oversight
    of the Agency’s lending programs. In addition to financial assistance programs, the Office of Capital Access
    (OCA) oversees the Surety Guarantee (SG) program, the International Trade program, and the Program for
    Investment in Microentrepreneurs (PRIME). OCA is also responsible for servicing all disaster loans and
    administering SBA’s Asset Sales program.

    The Office of Entrepreneurial Development administers programs that offer information, counseling, and
    management assistance through SBA’s many resource partners and district offices. Resource partners include
    Service Corps of Retired Executives (SCORE), Small Business Development Centers (SBDC), Business
    Information Centers (BIC), and Women’s Business Centers (WBC). These resource partners provide guidance
    and expertise to new entrepreneurs.

    The Office of Government Contracting and Business Development administers programs that assist small
    businesses with Federal procurement opportunities. The Office of Business Development (BD) provides
    technical and procurement assistance to eligible businesses through two principal programs: (1) BD, which
    encompasses the Section 8(a) program and the Mentor-Protégé program; and (2) the Section 7(j) Management
    and Technical Assistance program. BD also includes the Office of Small Disadvantaged Business Certification
    and Eligibility (SDBC&E), which certifies companies applying as small disadvantaged businesses. The Office of
    Policy, Planning, and Liaison (OPPL) provides policy support for all of the Agency’s procurement assistance
    programs. OPPL also includes the Office of Technology, which expands the competitiveness of small high
    technology research and development businesses in the Federal marketplace through two programs: Small
    Business Innovation Research and Small Business Technology Transfer. OPPL also includes the Office of Size
    Standards, which reviews and establishes industry size standards. The HUBZone Empowerment Contracting
    (HUBZone) program is designed to stimulate economic development and create jobs in urban and rural
    communities by providing contracting preferences to small businesses located in historically underutilized
    business zones. The Office of Government Contracting (GC) works with Federal agencies to establish and
    achieve goals for small business participation in Federal contracting. Through its field structure, GC reviews
    proposed procurements and identifies opportunities for all categories of small businesses.

    The Office of Disaster Assistance offers assistance to victims of hurricanes, floods, earthquakes, wildfires,
    tornadoes, and other physical disasters. SBA's disaster loans are the primary form of Federal assistance for non-
    farm, private sector disaster losses. SBA is authorized by the Small Business Act to make three types of disaster
    loans: (1) physical disaster loans, which provide a primary source of funding for permanent rebuilding and
    replacement of uninsured disaster damages to homeowners, renters, non-farm businesses of all sizes, and
    nonprofit organizations; (2) economic injury disaster loans, which provide businesses with necessary working
    capital until normal operations resume after a physical disaster; and (3) pre-disaster mitigation loans. The disaster
    program is SBA's largest direct loan program, and the only SBA program for entities other than small businesses.
    SBA delivers disaster loans through four specialized Disaster Area Offices located in Niagara Falls, NY;
    Atlanta, GA; Ft. Worth, TX; and Sacramento, CA.




2                                                                                     Semiannual Report September 2002
         Significant Activities and Management Challenges


                               OIG Strategic Plan

 OIG Strategic Plan                  OIG’s vision is to improve SBA programs by identifying key issues
                               facing the Agency, ensuring that corrective actions were taken, and promoting a
                               high level of integrity. OIG continues to focus on serving the needs of our
                               customers and stakeholders and on safeguarding SBA resources from, waste,
                               fraud, and abuse. The goals we sought to achieve under the current strategic
                               plan were to: (1) improve the economy, efficiency, and effectiveness of SBA
                               programs; (2) prevent and detect fraud and abuse and foster integrity in SBA
                               programs and operations; and (3) ensure the economical, efficient, and effective
                               operation of OIG. These goals provided the broad framework of our mission
                               from which we further concentrated our work in the following five cross-cutting
                               areas of strategic focus: (1) financial management systems; (2) information
                               systems and computer security; (3) lender oversight; (4) selected high-risk
                               issues; and (5) new Agency initiatives. During this reporting period OIG
                               completed its work to develop a new strategic plan for FY 2003 – FY 2007.
                               After consultation with stakeholders, OIG will implement this plan in FY 2003
                               and will subsequently report our activities against the new goals and objectives.


                                     The following section details significant OIG accomplishments as they
                               relate to the strategic foci in the current strategic plan.

                               Financial Management Systems
                               SBA’s FY 2001 Financial Statement Management Letter
The SBA FY 2001
Financial Statement                  As part of the SBA FY 2001 annual financial statement audit, OIG
Management Letter              issued the independent auditor’s management letter. It identified issues related
identifies nine                to: (1) personal property and equipment; (2) foreclosed property records and
                               valuation; (3) loan accounting records and servicing; (4) analysis of account
additional issues not          balances and transactions; (5) credit card use; (6) sensitive loan sale
noted in the FY 2001           information; (7) new transaction codes; (8) Master Reserve Fund (MRF)
Financial Statement            reporting; and (9) disaster loan cash flows. The conditions were identified
audit.                         during the SBA FY 2001 financial statement audit, but were not required to be
                               included in the report on internal control. The first two issues were presented to
                               document SBA’s completion of remedial activity and to close the two
                               recommendations. The Chief Financial Officer (CFO), Assistant Administrator
                               for Administration (AA/A), and Chief Information Officer (CIO) generally
                               agreed with the auditor’s findings and recommendations.

                               SBA’s Georgia District Office’s Sponsorship Activities


                                     O   IG issued a report on the Georgia District Office’s sponsorship
                               activities at the request of the former Deputy Associate Administrator for Field

Semiannual Report September 2002                                                                            3
             Significant Activities and Management Challenges


                                Operations. OIG reviewed the Office’s compliance with SBA’s policies and
                                procedures for co-sponsorships and SBA gift authority. The audit revealed that
                                the Office: (1) solicited and accepted gifts from prohibited sources and from a
                                source requiring a conflict of interest determination; (2) did not deposit gift
                                funds into the Business Assistance Trust (BAT) Fund; (3) used gift funds for
                                prohibited purposes; (4) inappropriately expended excess funds; (5) collected
                                and used registration fees without authority; and (6) did not have adequate
    OIG highlights several      controls in place to ensure proper accountability of funds. OIG concluded that
    noncompliances with         these noncompliances occurred because senior District Office management did
    Agency policy regarding     not believe the requirements of Standard Operating Procedure 90 75 2 were
                                applicable to any of the Office’s events and because oversight by regional and
    sponsorship activities in   Headquarters personnel was not adequate.
    a district office.
                                OIG recommended that the Associate Administrator for Field Operations
                                (AA/FO) provide better guidance to field office staff and improve its oversight
                                over field office SBA-sponsored and cosponsored activities. The recommended
                                guidance should address: (1) the distinction between the types of events and the
                                appropriate procedures for planning and conducting cosponsored and SBA-
                                sponsored events; (2) the appropriate sources from whom to solicit and accept
                                gifts; (3) the requirement to obtain conflict of interest case-by-case deter-
                                minations; (4) the proper procedures for disbursing excess gift funds; (5) the
                                remission of gift funds to the BAT Fund at the U.S. Treasury; (6) the proper
                                accountability of event funds; and (7) the appropriateness of charging fees. The
                                General Counsel and AA/FO generally agreed with the final recommendations.

                                SBA Faces Significant Issues in Financial Management and
                                Implementation of its New Accounting System


                                     During this reporting period, a number of significant issues were
                                identified affecting SBA’s financial management activities relating to the
                                accounting treatment for loan assets sales, oversight of the MRF for the
                                secondary loan market, and implementing its new administrative accounting
                                system. The loan asset sales accounting issues have been identified by the
                                General Accounting Office (GAO) and GAO will be issuing their report shortly
                                detailing those issues. In addition, OIG has work in progress relating to SBA’s
                                accounting and oversight of the fiscal health of the MRF, including adherence
                                to U.S. Treasury fund requirements identified in a prior OIG audit. OIG is also
                                conducting an audit of the implementation of the Joint Accounting and
                                Administrative Management System (JAAMS) to determine how well SBA
                                followed a structured approach and methodology in acquiring the system and
                                whether users are satisfied with the utility and information available to manage
                                administrative funds. JAAMS is an off-the-shelf software package that
                                provides the basis for an integrated financial management solution for Federal
                                agencies. GAO and OIG expect to issue reports during the first half of FY
                                2003.



4                                                                        Semiannual Report September 2002
         Significant Activities and Management Challenges


                               OIG, through its independent public accountant, is currently auditing SBA’s
                               FY 2002 financial statements. The audited financial statements are due to the
                               Office of Management and Budget (OMB) on January 31, 2003. The financial
                               statement audit will need to consider the impact of these issues on SBA’s
                               financial statements.

                               Information Systems and Computer Security
                               SBA’s Information Systems Controls – Fiscal Year 2001


                                    O    IG issued an independent auditor’s report on information systems
                               controls for FY 2001 as part of the SBA annual financial statement audit. The
                               auditors reviewed general controls over SBA’s financial management systems
                               to determine compliance with various Federal requirements. General controls
                               are the policies and procedures that apply to all or a large segment of an entity’s
                               information systems to help ensure their proper operation. While the auditors
                               concluded, as they did in FY 2000, that SBA made progress toward
                               implementing an Agency-wide systems security program, improvements are
                               still needed.

                               The report identified areas of weakness and provided recommendations for
                               strengthening controls in the following areas: (1) entity-wide security program
                               controls; (2) access controls; (3) application software development and program
                               change controls; (4) system software controls; (5) segregation of duty controls;
                               (6) service continuity controls; and (7) review of mainframe operations. The
                               CIO and CFO generally agreed with 15 of the 24 recommendations in the draft
                               report; they did, however, disagree with 8 recommendations and did not
                               comment on 1 recommendation. An overriding concern of the Agency was that
                               the report did not give enough recognition to the progress SBA has made over
                               the past several years toward achieving its goals of control and security over its
                               information systems. The independent auditors agreed that SBA has made
                               significant improvements and modified the report appropriately to reflect those
                               improvements. The Associate Administrator for Disaster Assistance agreed
                               with the findings and provided comments on the recommendations affecting his
                               office.

                               SBA’s Information Security Program

OIG finds that SBA’s                T  he Government Information Security Reform Act (GISRA) requires
information security           OIG to perform an independent evaluation of SBA’s information security
program generally              program. In September 2002, OIG issued a report presenting the results of its
continues to improve.          evaluation. The auditors found that generally SBA’s information security
                               program continues to improve for high priority financial management and
                               general support systems. Vulnerabilities continue to exist, however, in
                               computer security program monitoring, computer incident response reporting,


Semiannual Report September 2002                                                                             5
             Significant Activities and Management Challenges


                                system access controls, computer security system testing, and disaster recovery
                                and contingency planning. OIG agreed with the Agency’s assessment of the
                                material weaknesses in these areas.

                                Lender Oversight
                                Review of SBA Loan Processing
    OIG continues its
    ongoing audit of                  OIG has completed a series of audits of SBA-guaranteed loans
    defaulted loans to          originated by a former Preferred Lender Program (PLP) lender. The audits
    identify trends in lender   covered loans that were purchased by SBA between January 1996 and
    processing that may         February 2000. The objective of the audit was to determine if the PLP lender
    help the Agency save or     processed and serviced the loans in accordance with SBA rules and regulations.
                                Through September 30, 2002, OIG completed audit reports on eight loans that
    recover funds.              were not processed by the lender in material compliance with SBA rules and
                                regulations. The deficiencies involved lender actions related to: repayment
                                ability, equity injection, use of proceeds, creditworthiness, collateral, eligibility,
                                Internal Revenue Service (IRS) verifications, working capital, and appraisals.
                                The eight final audit reports have a combined recommended recovery of
                                $1.3 million for erroneous guaranty payments and have gained the attention of
                                the SBA lending community and SBA program offices. The shortcomings of
                                the guaranty purchase process have been one of the OIG top 10 management
                                challenge. Other audits of this lender’s loans are in progress.

                                An example of the problems disclosed follows:

                                •   The lender approved a loan to a borrower that did not have repayment
                                    ability. According to SBA procedures, the ability to repay a loan from the
                                    cash flow of the business is the most important consideration in the loan
                                    making process and absence of repayment ability dictates the decline of the
                                    loan. The lender relied on the projected earnings of the business to
                                    determine repayment ability, but the lender’s analysis did not include
                                    several expenses, such as an increase in the lease expense, owner salaries,
                                    and payments on a loan to the stockholders. When these expenses are
                                    added to the lender’s repayment calculation, the result was a negative cash
                                    flow. The lender also did not verify equity, did not exercise prudent
                                    controls over the use of loan proceeds, and did not obtain IRS verification
                                    as required. As a result of these deficiencies, the lender agreed to repay
                                    $197,751 to SBA which represented the full amount paid on the guaranty.

                                In October 2002, SBA issued a Policy Notice on the guaranty purchase process
                                to improve the quality, consistency, and timeliness of guaranty purchase
                                decisions. The Policy Notice provides general guidance and instructions for
                                SBA’s review of a guaranty purchase request and addresses specific purchase
                                issues. Implementation of the new guidance should help improve some of the
                                problems noted by our prior audits with the guaranty purchase decision process.

6                                                                           Semiannual Report September 2002
                Significant Activities and Management Challenges


                                         An on-going OIG audit of the guaranty purchase process scheduled for
FY02 Management Challenges               completion during the first quarter of FY 2003, will address any remaining
                                         weaknesses of the purchase process and the anticipated impact of the policy
Agency-wide Issues                       notice on guaranty purchase decisions.
1.    SBA needs to improve its man-
      aging for results processes and    Investigative Work in the Area of Lender Oversight
      produce reliable performance
      data.
                                              O    IG continues to work fraud cases that relate to loan agents and loan
2.    SBA faces significant challenges   packagers. OIG has noted a trend of increased fraud among these groups.
      in modernizing its major loan
      monitoring and financial
                                         Several ongoing joint investigations with the Federal Bureau of Investigation
      management systems.                (FBI) and the Department of Treasury Inspector General for Tax
                                         Administration (TIGTA), were initiated as a result of fraudulent schemes to
3.    Information systems security       obtain millions in SBA-guaranteed business loans to finance the purchase of gas
      needs improvement.                 station/convenience stores in Texas. The schemes involved: 1) false capital
4.    Maximizing program                 injections; 2) false tax returns; 3) false tax return verifications; 4) inflated
      performance requires that SBA      selling prices; and 5) false appraisals which resulted in properties being
      fully develop and implement its    purchased and resold in a short period of time with the value inflated each time
      human capital management           (flipped). All transactions were financed by SBA-guaranteed business loans.
      strategies.
                                         The schemes involved dual escrow closings where loan proceeds from one
Loan Programs                            closing were used as capital injection for another loan, as well as third parties
                                         (investors) providing, for a fee, the capital injection until closing, straw buyers,
5.    SBA needs better controls over     and sellers. Amended tax returns with increased profits were filed with IRS and
      the business loan purchase         after IRS verification were amended back to the reduced profits. There were
      process.
                                         only slight variations to the schemes, all of which involved loan packagers, loan
6.    SBA needs to continue improving    brokers (who find buyers and sellers), IRS verification personnel, title company
      lender oversight.                  officials, appraisers, and bank loan officers. To date, these investigations have
                                         yielded 30 indictments, 13 convictions, more than $12.7 million in recoveries,
Section 8(a) Business Development
                                         and more than $15.7 million in cost avoidances.
7.    More participating companies
      need access to business
      development and contracts in the
                                         Selected High Risk Issues
      Section 8(a)BD program.
                                         FY 2002 Top 10 Management Challenges and Progress Made
8.    SBA needs clearer standards to
      determine economic
      disadvantage.                           In accordance with the Reports Consolidation Act of 2000, in
9.    SBA needs to clarify its rules     January 2002, OIG issued its report identifying and rating the most serious
      intended to deter Section 8(a)BD   management challenges facing SBA in FY 2002. A full discussion of the
      participants from passing          challenges and how OIG developed them can be found at the OIG website:
      through procurement activity to    http://www.sba.gov/IG/igreadingroom.html.
      non-Section 8(a)BD firms.

Fraud Deterrence and Detection           Using unverified information submitted by SBA management in July 2002,
                                         OIG provided the Agency with a mid-year assessment of SBA progress in
10. Preventing loan fraud requires       resolving the FY 2002 management challenges. The Agency’s record of
    additional measures, including       progress in resolving the challenges was mixed. Moreover, we still found few
    new regulations and funding.
                                         progress reports that contained targets or milestones for achieving progress.



     Semiannual Report September 2002                                                                                   7
              Significant Activities and Management Challenges


                                 In January, when the FY 2002 challenges were published, the Agency appeared
                                 to be making some progress on five challenges. These included modernizing
                                 information systems, improving information systems security, implementing
                                 human capital management strategies, business loan guarantee purchase
                                 controls, and improving lender oversight.

                                 By June, some additional substantive progress had been noted regarding
                                 modernizing financial management information systems, business loan
                                 guarantee purchase controls, and improving lender oversight. Based on an on-
                                 going audit, however, OIG noted that there had been some weakening in small
                                 business investment company (SBIC) oversight. Moreover, the development of
                                 the original loan monitoring system had been put on hold and the Office of
                                 Lender Oversight was developing preliminary information to identify loan
                                 monitoring requirements.

                                 Incremental progress continued to be made in improving information systems
                                 security and in implementing human capital management strategies; however, it
                                 was not sufficient to warrant a change in project status.

                                 No progress was reported on the managing for results challenge. There was
                                 also still no measurable progress on preventing loan agent and borrower fraud.
                                 While no decisions had been made, a SBA task force was exploring approaches
                                 to address two of the three Section 8(a) Business Development (BD) program
                                 challenges—access to business development and contracts and clearer standards
                                 to define “economic disadvantage.” SBA had made progress in the area of
                                 Section 8(a) pass-through procurement activity.

                                 Fraud Detection and Deterrence


                                      In FY 2002, OIG focused significant resources on fraud detection and
                                 deterrence in SBA programs. The Office gave 18 fraud awareness briefings to
                                 approximately 925 people from SBA, other Federal agencies, and private sector
                                 partners. OIG handled 66 security clearances and performed name checks on
                                 nearly 2,400 entities which resulted in OIG recommending that more than
                                 $35.7 million in loans not be awarded. Being potential high risk loans, this
                                 represents a significant cost-avoidance for the Agency.
    OIG conducts an audit to
    determine if the pre and     Section 7(j) Management and Technical Assistance Program Cooperative
                                 Agreement Administration Activities
    post award process for the
    Section 7(j) program
    cooperative agreement             O    IG issued a report on SBA’s Section 7(j) Management and Technical
    awards was conducted         Assistance program cooperative agreement administration activities. The
                                 Section 7(j) program provides management and technical assistance to Section
    appropriately.
                                 8(a) certified firms, small disadvantaged businesses, businesses operating in
                                 areas of high unemployment or low income, and firms owned by low income
                                 individuals. Funding for the program was $3.6 million in FY 2000 and

8                                                                        Semiannual Report September 2002
           Significant Activities and Management Challenges


                                 FY 2001. The objective of the audit was to determine whether pre- and post-
                                 award processes associated with Section 7(j) program cooperative agreement
                                 awards were carried out in accordance with applicable policies and procedures
                                 to ensure the effective use of program funds. OIG found that: (1) SBA's
                                 reliance on unsolicited proposals limited its ability to effectively plan, process,
                                 and approve project awards; (2) documentation associated with proposal and
                                 financial reviews was incomplete; (3) award recommendations were not
                                 properly supported; (4) legal sufficiency review issues were not resolved prior
                                 to award; and (5) project reporting and monitoring required improvement. The
                                 extent of SBA's failure to follow established policies and procedures indicates a
                                 potential material weakness in the Section 7(j) program. OIG made 12
                                 recommendations to the Associate Deputy Administrator for Government
                                 Contracting and Business Development (ADA/GC&BD) and the AA/A that are
                                 expected to be addressed during the follow-up and resolution process.

                                 New Agency Initiatives
                                 Modernizing Human Capital Management


OIG makes                             OIG issued a report on modernizing human capital management. The
                                 purpose of the report was to provide SBA management with recommendations
recommendations to the
                                 to assist in repositioning the Human Resources (HR) office and its functions.
Agency for improving             However, the report’s research and conclusions are broad-based and may have
its human capital                value for other government entities facing these challenges. The inspection
management initiative.           focused primarily on: (1) delivery systems (especially automation); (2) HR
                                 metrics; and (3) office structure. To identify “best practices” in these areas,
                                 OIG staff visited agencies that are moving ahead in HR automation, advisory
                                 services, and building metrics.

                                 OIG made several recommendations. First, that SBA review the business case
                                 for its HR information system in light of other agencies’ implementation
                                 experiences and the Administration’s new HR initiatives, and consider available
                                 short-term alternatives. Second, that the SBA HR office develop business case
                                 metrics to determine the cost effectiveness of implementing appropriate
                                 functional automation software and/or outsourcing or cross-servicing certain
                                 HR functions. Third, that the SBA HR office work with SBA management to
                                 develop a measurement system that conforms to the Office of Personnel
                                 Management’s (OPM) Standards of HR Management Accountability and
                                 includes: (1) financial measures, such as cost per employee hired; (2) customer
                                 satisfaction measures, such as those associated with responsiveness and quality;
                                 (3) workforce capacity measures, such as employee satisfaction and education;
                                 and (4) process effectiveness, such as cycle time and productivity. Fourth, that
                                 the Assistant Administrator for HR ensure that: (1) relevant SBA HR activities,
                                 such as strategic advisory services, are incorporated into office operations, and
                                 the office plays a key role in the Agency’s workforce planning and restructuring
                                 effort; (2) a process is in place for working closely with line management;


  Semiannual Report September 2002                                                                              9
     Significant Activities and Management Challenges


                  (3) individual planning, policy, and operational responsibilities within the office
                  are well-defined; and (4) HR activities, metrics, and results are publicized to all
                  concerned HR staff, line managers, and the workforce. The Deputy Associate
                  Deputy Administrator for Management and Administration agreed with the
                  recommendations.




10                                                          Semiannual Report September 2002
                                          OIG Profile


                                      S  BA/OIG was established by the Inspector General (IG) Act of 1978.
                                 OIG provides nationwide coverage of SBA’s programs and activities. In
                                 addition to the Immediate Office of the IG, OIG’s five divisions work
                                 together to perform the missions mandated by Congress.
There are five divisions
of SBA/OIG.                      •   Auditing Division provides comprehensive audit coverage of SBA’s
                                     operations through program performance reviews, internal control
                                     assessments, and financial and mandated audits to promote the
                                     economical, efficient, and effective operation of SBA programs.
                                     Audits give SBA managers an objective and systematic assessment of
                                     how well their offices are carrying out their programs and operations.
                                     Financial audits examine the presentation of financial information,
                                     internal controls, and adherence to financial requirements. Performance
                                     audits assess operations in terms of economical and effective use of
                                     resources.

                                 •   Investigations Division manages a nationwide program to prevent and
                                     detect illegal and/or improper activities involving SBA programs,
                                     operations, and personnel. The criminal investigative staff carries out a
                                     full range of traditional law enforcement functions. The security
                                     operations staff ensures that all Agency employees have the appropriate
                                     background investigations and security clearances for their duties. The
                                     name check program provides SBA officials with character-eligibility
                                     information on loan applicants and other potential program participants.

                                 •   Inspection and Evaluation Division conducts assessments of the
                                     effectiveness of SBA programs and activities, analyses of critical
                                     program issues, best practices studies, and research on matters
                                     concerning SBA performance.

                                 •   Counsel Division is an in-house legal staff that provides legal advice
                                     and assistance to all OIG components, represents OIG in litigation
                                     arising out of or affecting OIG operations, and processes Freedom of
                                     Information and Privacy Act requests.
                                 •   Management and Policy Division is responsible for developing,
                                     managing, and executing the OIG budget; developing and supporting
                                     information systems and hardware; developing OIG HR policy and
                                     providing a full-service HR program to OIG; providing support services
                                     to headquarters (HQ) OIG employees; managing a nationwide facilities
                                     management function; providing communications services; authoring
                                     and publishing semi-annual reports, OIG strategic and operating plans
                                     and reports, and OIG annual plans and reports.




  Semiannual Report September 2002                                                                            11
                                                            OIG Profile


                                                        O    IG is headquartered in Washington, DC, and has field audit and
       SBA/OIG has offices                         investigation offices in Atlanta, Chicago, Dallas, Denver, Houston, Kansas
          nationwide.                              City, Los Angeles, Philadelphia, New York, San Francisco, San Juan,
                                                   Seattle, and Syracuse.


       SBA/OIG resources.                               As of September 30, 2002, OIG’s on-board strength was 107. The
                                                   OIG FY 2002 appropriation was $11.5 million, with a $500,000 transfer for
                                                   disaster assistance oversight activities, and a $5,568 rescission.




                                         OFFICE OF INSPECTOR GENERAL
                                        SMALL BUSINESS ADMINISTRATION


                                                 INSPECTOR GENERAL
                                                                                     COUNSEL DIVISION
                                                      DEPUTY
                                                 INSPECTOR GENERAL




              AUDITING DIVISION                INSPECTION AND                  INVESTIGATIONS               MANAGEMENT AND
                                             EVALUATION DIVISION                  DIVISION                   POLICY DIVISION


CREDIT PROGRAMS           BUSINESS DEVELOPMENT
     GROUP                  PROGRAMS GROUP
                                                          WASH., DC      NEW YORK          ATLANTA        CHICAGO      LOS ANGELES



 WASH., DC                  WASH., DC
                                                                                                                           SAN
                                                         PHILADELPHIA    SYRACUSE           DALLAS        DENVER
                                                                                                                        FRANCISCO


  ATLANTA
                                                                          SAN JUAN         HOUSTON       KANSAS CITY


  DALLAS
                                                                                                          SEATTLE


LOS ANGELES




 12                                                                                             Semiannual Report September 2002
                                     OIG Activities


                                    T   his chapter includes details and results of audits, investigations,
                               inspections, and other significant OIG activities. The material in this
                               chapter is organized by major SBA program area. Many of the audits,
                               inspections, and other materials discussed in this section can be found at
                               http://www.sba.gov/IG/igreadingroom.html.


                               Business Loan Programs
                                    A   s was discussed in the Significant Activities and Management
                               Challenges section, OIG has conducted a series of audits of SBA-guaranteed
                               loans by a former PLP. Below are illustrations of these audits and their
                               results.

                               •   An applicant for one approved loan submitted false and misleading
                                   financial information to the lender. The financial documentation
                                   submitted by the borrower was modified and altered in a manner that
                                   should have been detected by the lender. The wage information
OIG continues audits of            reported on the applicant’s Wage and Tax Statement (Form W-2) was
SBA-guaranteed loans               clearly altered from $23,909 to $84,093. The applicant’s Federal tax
                                   return was also modified to match the altered amount shown on the
made by a former PLP.              Form W-2. Finally, the business income statement for the most recent
                                   year of operation was an exact copy of the prior year’s income statement
                                   with the exception of the dates. The lender did not obtain an IRS
                                   transcript to verify the financial data submitted by the borrower. The
                                   failure of the lender to identify the falsified information and obtain an
                                   IRS verification reflect lack of due care during the review and
                                   evaluations of the loan application. This loan was subject to denial
                                   based on the applicant’s poor character and questionable repayment
                                   ability. The District Director (DD) agreed with the recommendation to
                                   seek recovery of $93,689 from the lender.

                               •   For a loan made under the LowDoc pilot loan program, the lender did
                                   not follow prudent lending practices in assessing the applicant’s
                                   repayment ability and securing collateral. The lender based repayment
                                   on the projected earnings of the business, which was based on two
                                   pending distribution contracts. However, the lender did not take prudent
                                   measures to ensure that the contracts were in effect before disbursing the
                                   loans proceeds. The business failed after making just five payments
                                   because the distribution contracts never materialized. The lender also
                                   did not take prudent measures to protect the collateral that was taken to
                                   secure the loan. Soon after the loan was disbursed, the borrower began
                                   showing signs of trouble by missing payments and making interest only
                                   payments. During a 2-month period, the borrower issued 4 checks that
                                   bounced due to lack of funds. In accordance with SBA procedures, a
                                   lender is required to perform a site visit within 10 days of knowledge of
                                   conditions that create an in-liquidation situation. There was no evidence

Semiannual Report September 2002                                                                              13
                                     OIG Activities


                                   that the lender performed a site visit until after learning from the
                                   borrower’s landlord, 2 years after the loan was disbursed, that the
                                   borrower had vacated the premises and taken all the collateral. The
                                   collateral was never located. While the DD disagreed with the
                                   recommendation to seek recovery of $84,911 and stated that liability on
                                   the loan should not be denied based on credit that was approved by
                                   SBA, there was no evidence found or provided to support that SBA
                                   pre-approved the credit decision on this loan.

                               •   The lender disbursed an SBA loan for $493,747 to refinance ineligible
                                   loans. SBA procedures provide that loan proceeds may be used to
                                   refinance debt when the terms of the debt are unreasonable and
                                   refinancing will provide substantial benefit to the small business in the
                                   form of increased cash flow. The lender must also certify in writing that
                                   the debt refinanced is and always has been current. The only
                                   documentation found in support of the loans was a manually prepared
                                   schedule that did not provide enough information to evaluate if the loans
                                   met refinancing requirements. Furthermore, the schedule indicated that
                                   2 of the loans may have been delinquent for 9 months and 2 years.
                                   Consequently, because there was no evidence that the loans were
                                   eligible for refinancing with SBA-guaranteed loan proceeds, SBA was
                                   not obligated to honor the guaranty portion of the loan used to refinance
                                   $493,747 of borrower debt. The lender also did not verify the use of
                                   proceeds intended to pay off the balance on a purchase contract for
                                   vending machines that were also taken as collateral on the loan. Under
                                   the agreement, the proceeds were to be disbursed via a joint payee check
                                   and title of the vending machines would transfer to the borrower upon
                                   evidence that the check was deposited into the vendor’s bank account.
                                   However, the lender did not take prudent measures to ensure that
                                   proceeds were properly disbursed and instead made the check out in the
                                   name of the borrower only who deposited it into his bank account.
                                   There was no evidence that the borrower ever paid off the balance on the
                                   purchase contract or took title or possession of the vending equipment.
                                   The DD agreed with the audit recommendation to seek recovery of
                                   $450,599 from the lender and had collected $370,309 by the time the
                                   audit report was issued.

                               Borrowers with Prior Loan Defaults
     OIG recommends that
     the Agency develop
     new procedures to              OIG issued a report on borrowers with prior loan defaults. The
     safeguard against loans   objective of the audit was to determine if Section 7(a) loans were
                               inappropriately guaranteed for applicants who had previously defaulted on
     being issued to
                               guaranteed loans resulting in a loss to the Government. OIG performed the
     borrowers with prior      audit using a sample of 47 loans obtained from SBA’s loan database by
     defaults.                 matching loans made between October 1995 and April 2001, to all
                               purchased and liquidated loans. The audit identified that 166 of the loans
                               were made to applicants with prior loan losses. Of those 166, OIG can

14                                                                      Semiannual Report September 2002
                                       OIG Activities

                                 confirm 42 applicants that caused prior losses to the Government received
                                 new loan guarantees. OIG could not verify that the remaining 124 loans
                                 were made to applicants with prior losses because the prior loan files no
                                 longer exist. OIG found that district offices were not adhering to the 10-year
                                 retention requirement for charged-off loan files. OIG identified 30 files
                                 destroyed between 3.4 years and 9 years after being charged-off. As a result
                                 of the ineligible loans, SBA was at risk for guarantees totaling about $20.1
                                 million and had honored guarantees totaling about $2.3 million to borrowers
                                 with prior defaults. Additionally, one of the sample loans defaulted after the
                                 draft report was issued and is estimated to result in a loss of about $667,500
                                 to SBA. Based on the audit findings, the loan was referred to the
                                 Investigations Division and is being considered for investigation.

                                 OIG recommended that the Office of Financial Assistance (OFA) establish
                                 procedures to require loan officers to identify applicants with prior loan
                                 losses and to allow lenders to use the SBA database to identify applicants
                                 with prior loan losses, seek recovery from existing borrowers who failed to
                                 disclose their prior loan losses, annotate loan files to identify borrowers with
                                 current loans who failed to disclose prior losses, and reiterate to district
                                 offices the requirements for retention of charged-off loan files.

                                 OFA did not believe that the cited condition was significant enough to
                                 warrant new procedures and was concerned that lender access to the SBA
                                 database would raise Privacy Act issues. OFA agreed to seek recovery from
                                 borrowers whose current loans default and who failed to disclose prior
                                 losses, to annotate the loan database to alert SBA personnel of existing
                                 borrowers who failed to disclose prior losses, and to issue guidelines to field
                                 offices about retention of charged-off loans.

                                 Two Early Defaulted Loans

OIG recommends that the               O   IG issued a report on two early defaulted loans originated by the
SBA recover $747,308             same lender. The first loan was $1.56 million to borrower #1 and the second
plus interest and expenses       loan was $1.58 million borrower #2. The loans were selected as part of
paid for a defaulted loan,       OIG’s on-going program to audit SBA-guaranteed loans charged-off or
suspend the lender’s             transferred to liquidation status within 36 months of approval. The objective
                                 of the audit was to determine if the early loan defaults were caused by lender
preferred status, and            or borrower noncompliance with SBA’s requirements.
pursue civil enforcement.
                                 OIG found that the lender did not comply with SBA’s policies and
                                 procedures for the two related loans. The lender did not ensure that
                                 borrower #1 complied with SBA regulations and material conditions of the
                                 loan authorization. Borrower #1 used loan proceeds for unauthorized and
                                 unsupported purposes, and the lender did not ensure that the borrower
                                 obtained lien waivers, a valid surety bond, and had the ability to pay
                                 additional construction expenses. These noncompliances reduced the
                                 amount of funds available to complete the project and contributed to the loan
                                 default. The lender became aware of the noncompliances and, in lieu of

  Semiannual Report September 2002                                                                             15
                                    OIG Activities


                              submitting the defaulted loan for SBA to honor the guarantee, attempted to
                              complete the project and remedy the default by making a subsequent loan to
                              borrower #2. Borrower #2 was formed by two of borrower #1’s partners.
                              The loan to borrower #2 did not meet SBA’s eligibility criteria for change of
                              ownership, was improperly made using preferred lending procedures, and
                              did not include the required equity injection. Additionally, the loan did not
                              meet refinancing criteria. The effect of the subsequent loan was to transfer
                              the lender’s loss to SBA. SBA paid approximately $747,000 to honor the
                              guarantee.

                              OIG recommended that the SBA Georgia District Office deny liability for
                              the loan to borrower #2 and seek recovery from the lender of principal
                              totaling $747,308 plus interest and expenses paid by SBA. OIG also
                              recommended that the lender’s preferred lender program status be suspended
                              and that SBA pursue civil enforcement remedies against the lender under the
                              False Claims Act. The District Director agreed with our recommendations.

                              SBA’s Experience with Defaulted Franchise Loans


                                   O    IG issued a report on SBA’s experience with defaulted franchise
                              loans. The inspection examined the franchise loan portfolio’s potential
                              exposure, purchase rates, and specific lenders’ performance. Despite SBA’s
                              public view that franchisees are generally more successful than
                              nonfranchisees, SBA’s experience with defaulted loans and some outside
                              studies do not support this. OIG recommended that the Agency’s printed
                              and electronic information no longer state this view. In addition, SBA’s
                              loan databases inaccurately identified some loans to nonfranchisees as
                              franchise loans, thus hampering the monitoring of potential franchisor
                              control over franchisees. Despite this, the databases may still be useful
                              because the control issue could apply to any situation in which a large entity
                              allows the use of its brand name. OIG also recommended that SBA define
                              what constitutes either a franchise loan or loans to small businesses that use
                              a larger firm’s brand name, communicate the definition(s), and recategorize
                              its loan data. Finally, although most of the large defaulted loans examined
                              in depth exhibited early warning signs, any deficiencies in credit analysis
                              cannot be attributed solely to lender bias in favor of franchise loans or their
                              equivalents. OFA agreed with OIG’s recommendations.

     OIG accomplishes         Investigative Accomplishments in the Business Loan Programs
     more than $8.5 million
     in cost avoidances            O   ver the years, OIG investigations of fraud in SBA’s loan programs
     during the reporting     have identified various types of fraud. Two major trends in recent years are:
     period.                  (1) fraud involving loan agents; and (2) fraud involving false tax returns.
                              OIG is reporting more than $8.5 million in cost avoidances this 6-month
                              period; $7.8 million of these avoidances were in the SBA loan programs and
                              resulted from four investigations in two SBA district offices. They fall into

16                                                                      Semiannual Report September 2002
                                     OIG Activities

                               two categories: (1) loans under investigation where the lender notified SBA
                               that it would not submit claims for guarantees; and (2) loans that were not
                               disbursed because of adverse information OIG was able to document.

                               Fraud Involving Loan Agents


                                    Loan agents provide referral and loan application services to
                               prospective borrowers or lenders for a fee. Some agents, particularly loan
                               packagers, have been involved in a variety of fraudulent schemes that have
                               resulted in financial losses to SBA and, ultimately, the taxpayers. During
                               this reporting period, OIG investigations of loan agent fraud resulted in four
                               indictments, one conviction, and $172,000 in restitution to SBA. The
                               following cases illustrate OIG investigations of fraud involving business
                               loan agents.

                               •   A Phoenix, Arizona, business executive was sentenced to 90 days of
                                   community confinement in a halfway house, 90 days home detention,
                                   and 3 years of supervised release, and was ordered to pay a $5,000 fine
                                   and $172,000 in restitution to SBA. He had pled guilty to one count of
                                   making a material false statement to obtain a $900,000 SBA-guaranteed
                                   loan for the purchase of six fast food franchises. The investigation
                                   disclosed that, at the direction of his business brokerage firm, the
                                   defendant claimed on his “Personal Financial Statement” form that he
                                   had $140,000 worth of stock in restaurants and that he had $471,949 in
                                   “earned fees.” The investigation revealed that although he knew about
                                   SBA’s cash injection requirement, he did not have the cash necessary to
                                   close the loan. As a result, he agreed to allow his business brokerage
                                   firm to obtain a temporary cash-injection from a third party. In order for
                                   the scheme to work, the defendant arranged to obtain a real estate sales
                                   license so that he could receive a commission for the sale of the six
                                   franchises he purchased through the business brokerage firm. The
                                   defendant knew that a portion of the commission would be used to repay
                                   the third party that made his cash injection. The case was a joint
                                   investigation with FBI and was based on a referral from the SBA
                                   Arizona District Office.

                               •   A Houston, Texas, loan broker and three of his clients who applied for a
                                   $2 million SBA-guaranteed loan to purchase a motel were indicted. The
                                   indictment charged all four on one count of conspiracy, three counts of
                                   mail fraud, and one count of wire fraud. According to the indictment,
                                   the defendants submitted a loan application package with fraudulent
                                   personal financial statements and a false purchase contract that inflated
                                   the price of the motel from $2 million to $2.7 million. To satisfy the
                                   closing requirements, the defendants submitted fraudulent copies of
                                   cashier’s checks as proof of their required equity injection. Three
                                   defendants were arrested following the closing conference at the title
                                   company, prior to loan funding and the fourth was arrested at a later


Semiannual Report September 2002                                                                           17
                                    OIG Activities


                                  date. This case was a joint investigation with FBI and was initiated
                                  based on a referral from the SBA Houston District Office.

                              Fraud Involving False Tax Returns

 Restitution and fines             O    ver the last 12 years, OIG has received more than 536 allegations
 resulting from tax fraud     that false tax returns were submitted in support of SBA applications (more
 referrals total nearly $30   than 98 percent for business or disaster loans). These fraud referrals
 million.                     involved applications totaling approximately $130 million that were
                              submitted to 57 SBA offices. To date, 172 individuals have been indicted
                              on criminal charges, 154 adjudicated guilty, 7 indictments were dismissed,
                              1 defendant was acquitted, and 11 others have not yet gone to trial.
                              Restitution and fines from those adjudicated guilty total nearly $30 million.
                              Because of the implicit credibility of Federal tax returns, SBA has
                              traditionally relied heavily on information they contain in making its credit-
                              related decisions, so falsification of “copies” of returns can have a
                              significant impact on SBA’s consideration of those applications. During the
                              last 6 months, OIG investigations of tax-return fraud generated two
                              indictments, three convictions, and more than $2.2 million in savings.


                                   T   he following cases illustrate OIG’s work on fraud involving false
                              tax returns.

                              •   Two former business owners of two gas stations and a dry cleaning
                                  business in Houston, Texas, agreed to pre-trial diversions. They were
                                  previously indicted on 1 count of conspiracy and 25 counts of making
                                  material false statements to SBA. The two were indicted along with a
 Three Illinois men               certified public accountant for fraudulently inducing a non-bank
 indicted for fraudulently        participating lender and SBA into funding a $355,000 SBA-guaranteed
 inducing a non-bank              loan for a service station. The principals allegedly falsified nine Federal
 participating lender and         income tax returns and six IRS tax return verifications, forged two fuel
                                  company leases, and falsified their $85,000 capital injection. While
 SBA into funding a
                                  awaiting trial, one of the owners conspired with three other individuals
 $355,000 SBA-                    by submitting two additional fraudulent SBA loan guaranty applications
 guaranteed loan.                 to two Federal Deposit Insurance Corporation (FDIC) insured banks for
                                  a total of almost $2.2 million. At the instruction of the U.S. Attorney’s
                                  Office, OIG notified the participant lenders that the defendant was
                                  apparently involved in a second scheme and the lenders declined the
                                  loans. OIG continues to conduct this investigation jointly with TIGTA.

                              •   A Chicago, Illinois, real estate attorney pled guilty to two counts of
                                  conspiracy in connection with his participation in schemes to defraud
                                  SBA and a non-participating lender and to obstruct and impede justice.
                                  Additionally, a Chicago, Illinois, SBA loan packager and business
                                  broker was indicted for allegedly aiding the preparation and filing of
                                  fraudulent income tax returns with the IRS. This fourth superseding

18                                                                      Semiannual Report September 2002
                                      OIG Activities

                                    indictment added the defendant’s name to those previously charged,
                                    including a restaurateur, the real estate attorney and two other attorneys,
                                    and a defunct Illinois corporation. The plea and charges were in
                                    connection with the purchase of a defunct Antioch, Illinois, restaurant.
                                    The scheme included a false capital injection by the borrower that
                                    enabled him to obtain a 100 percent financed $1.25 million business
                                    loan and resulted in fraudulent inflation of the sales price, exposing SBA
                                    and the non-bank participating lender to additional loss and reduced
                                    recovery potential. As part of the alleged conspiracy, the packager
                                    participated in preparing and submitting a loan package to the non-bank
                                    participating lender that contained false and exaggerated claims of work
                                    and management experience, and included false income and personal
                                    financial statements. The packager also hired an accountant (a now
                                    deceased friend) to prepare allegedly bogus tax returns for the borrower
                                    that were used in the SBA loan package and later submitted to IRS.
                                    Previously, the five defendants were charged in an eight count
                                    indictment with one count of conspiracy, aiding and abetting, mail fraud,
                                    and wire fraud. The indictment also charged the real estate attorney
                                    with one count of obstruction of justice and a second count of
                                    conspiracy in connection with allegedly fabricated documents produced
                                    to OIG by the real estate attorney and others in response to grand jury
                                    subpoenas. OIG initiated this investigation based on referrals from
                                    SBA’s Illinois District Office.

                                Other Types of Fraud


                                     The following cases illustrate OIG investigations involving fraud to
                                obtain business loans.

                                •   The former president of a contracting company in Aurora, Illinois, was
                                    sentenced to a prison term of 12 months and 1 day with a 2-year term of
                                    supervised release. The defendant was ordered to make complete
                                    restitution in the amount of $345,820. She previously pled guilty to one
                                    count of making a material false statement. The plea agreement resulted
Former contracting                  from a criminal-information that was filed earlier and relates to a
company president in                $400,000 SBA-guaranteed loan that was obtained by the defendant’s
Illinois sentenced to               company through an SBA participating lender. The purpose of the loan
                                    was to obtain working capital for her company. During the loan
12 months and 1 day in              application process, she signed an affidavit stating that she was
prison and a 2-year term            individually, and as a corporation, current on all Federal and state
of supervised release.              taxes. According to information gathered by the SBA Illinois District
                                    Office, at the time she signed this affidavit, she and the company had tax
                                    debt totaling more than $1 million. This investigation was worked
                                    jointly with FBI and was initiated based on a referral from the SBA
                                    Illinois District Office.




 Semiannual Report September 2002                                                                           19
           OIG Activities


     •   A Portland, Oregon, businessman and guarantor of an SBA-guaranteed
         loan made to a restaurant was indicted on six felony counts. The
         indictment charged that he made material false statements on business
         loan applications to the SBA-participating lender in support of a loan for
         $697,200, and a second loan for $168,995. The indictment also charged
         that he made material false statements on a loan application to another
         SBA participating lender for a $169,500 SBA-guaranteed loan, and that
         he made material false statements on a second loan application for
         $196,875 to the first lender for the purchase of his residence. Additional
         counts of the indictment charged that he used false Social Security
         numbers (SSN) to obtain the loans and that he failed to disclose prior
         bankruptcies, judgments, other business interests, and previous criminal
         history. This case was a joint investigation with FBI and was initiated
         based on a referral from the SBA Oregon District Office.

     •   The owner of a commercial painting company in Berthoud, Colorado,
         was sentenced to 1 day of incarceration, 120 days of home detention,
         5 years of supervised release, and 150 hours of community service. In
         addition, she must pay $83,423 in restitution and seek psychological
         treatment. She previously pled guilty to one count of making a false
         statement to a federally-insured financial institution and one count of
         bankruptcy fraud. OIG’s joint investigation with FBI determined that
         the defendant failed to disclose approximately $250,000 in business debt
         and two pending lawsuits on her $100,000 LowDoc loan application. In
         addition, she used part of the loan proceeds for personal expenses, while
         failing to pay business debts. OIG initiated this investigation based on a
         referral from SBA’s Colorado District Office.

     •   The former president of a mergers and acquisition company in
         Cary, Illinois, was charged in an information on one count of making
         false statements to SBA, in connection with a $954,000 SBA-guaranteed
         loan. The purpose of the loan was to purchase a restaurant maintenance
         and repair business. As part of the loan application, he submitted an
         SBA Personal Financial Statement that failed to disclose a significant
         number of liabilities, including approximately $87,000 in debt to a bank
         and a $30,000 personal loan from his brother-in-law. The case was a
         joint investigation with FBI and was initiated based on a referral from
         the public.


          The following cases illustrate OIG investigations involving acts after
     business loans were approved.

     •   A Columbus, Ohio, businessman pled guilty to one count of making
         false statements to an FDIC-insured financial institution. The man was
         previously charged in an information with one count of making false
         statements to a federally-insured financial institution in connection with


20                                             Semiannual Report September 2002
                                       OIG Activities

                                     a $337,500 SBA-guaranteed loan to a graphic arts and book binding
                                     business he owned. SBA loan proceeds were to be used to purchase
                                     machinery and equipment for the business. However, OIG’s
                                     investigation revealed that he intentionally prepared and submitted false
                                     invoices to the participating lender bank and SBA to obtain the loan, and
                                     used loan proceeds to pay for unauthorized business and personal debts.
                                     OIG initiated this investigation based on a referral from the bank and
                                     SBA’s Columbus District Office.

                                 •   A Plano, Texas, businessman was sentenced to 4 months incarceration,
SBA works with FBI to                4 months home confinement, and 5 years supervised release. He was
investigate a Texas                  also ordered to pay $99,191 in restitution to a bank in Oklahoma. He
businessman who                      had pled guilty to a one-count charge of bank fraud for fraudulently
                                     influencing the bank to fund $105,340 in proceeds from an SBA-
committed bank fraud by              guaranteed loan. The investigation revealed that he presented
influencing a bank to fund           documents to the bank representing that his company had purchased
$105,340 in proceeds                 equipment for $131,675, when in fact no such purchase was made. The
from an SBA-guaranteed               case was a joint investigation with FBI and was initiated based on a
loan.                                referral from the SBA Oklahoma District Office.

                                 •   The co-owner of a bed and breakfast in Sidney, Ohio, pled guilty to one
                                     count of conversion of collateral pledged to SBA. The owners, a
                                     husband and wife, were each indicted on one felony count of conversion
                                     of collateral pledged to the SBA. The indictment related to a
                                     $200,000 SBA-guaranteed loan secured by the couple. The purpose of
                                     the loan was to purchase a house in Sidney, Ohio, that was to be
                                     converted to a bed and breakfast business. The SBA loan agreement
                                     collateral provisions specifically stated the borrower would provide as
                                     collateral the land and the buildings, including their inventory. The
                                     investigation revealed that after the couple defaulted on the SBA loan
                                     and filed for bankruptcy, they signed a contract to have the interior
                                     woodwork (trim, doors, and casings), an elaborate wood fireplace
                                     mantel, and a spiral staircase removed from the home and sold for
                                     $10,000. This investigation was initiated based on a referral from the
                                     SBA Columbus District Office.

                                 •   The part-owner of a vitamin and herb production and packaging
                                     company in Provo, Utah, was charged in an information by the Utah
                                     County Attorney’s Office with one count of pattern of unlawful activity,
                                     one count of forgery, eight counts of theft by deception, and eight counts
                                     of money laundering. OIG’s joint investigation with the Utah County
                                     Sheriff’s Office determined that the part-owner obtained a $905,000
                                     SBA-guaranteed loan in the name of a laboratory by falsely representing
                                     that he had authorization from the board of directors of that lab and that
                                     the board members were guaranteeing the loan. The defendant used the
                                     loan to purchase a building in his name and then represented to the
                                     board that they would be leasing a new building for their expansion
                                     from a disinterested third party. He then began collecting excessive


  Semiannual Report September 2002                                                                          21
           OIG Activities


         lease payments from the lab under a fabricated name using a post office
         box. In addition, the Utah County Sheriff’s Office investigation
         determined that he diverted over $1.5 million in company funds under
         false pretenses and used the funds for unauthorized personal expenses.
         Information provided by OIG was instrumental in developing Utah
         County’s already open investigation and securing the prosecution of the
         defendant. The case was initiated based on a referral from the SBA
         Utah District Office.

          T  he following case illustrates an OIG investigation involving fraud
     by a business lender.

     •   The president of a Kansas bank, individually and as president, signed
         Compromise and Settlement Agreements agreeing that the bank would
         pay the U.S. $250,000, release SBA from approximately $570,505 in
         liability on nine outstanding SBA-guaranteed loans, and neither the
         president nor the bank would participate in any SBA loan program for
         5 years. The president and the bank were charged in a civil fraud
         complaint that alleged false statements as well as breach of contract
         regarding an SBA-guaranteed loan the bank made to a foam core panel
         manufacturing plant. The plant defaulted on this loan and SBA paid the
         bank $474,587 under the guaranty agreement. A joint investigation with
         the U.S. Secret Service resulted in indictments of two plant officials for
         making false statements about their ownership and officer positions.
         One of the officials pled guilty and the other died prior to trial. The
         related civil fraud suit was then filed charging that the bank president
         and the bank: 1) submitted a falsely redacted appraisal to SBA;
         2) claimed the borrowers had excellent credit history when they had
         failed to obtain or review any credit report; and 3) falsely certified there
         had been no substantial adverse change in the financial condition of the
         borrower when, in fact, upon learning that the borrower would not be
         receiving a $500,000 grant (the application for which was never
         disclosed to SBA), they demanded additional security for the SBA loan.
         Finally, the lawsuit alleged that the president and bank certified the
         lender had not received any Certificates of Deposit (CDs) in connection
         with this SBA loan, when in fact they had obtained undisclosed CDs
         totaling $55,000. This civil fraud suit was litigated by the
         U.S. Attorney’s Office in Wichita, Kansas. This case was initiated
         based on a referral from the SBA Kansas City District Office.


          The following articles demonstrate OIG investigations where
     improper loans were made by business lenders.

     •   An SBA preferred lender agreed to release SBA of guaranty obligations
         on nine defaulted business loans totaling more than $6.5 million. The
         loans in question were identified in an alleged fraudulent “flipping”

22                                              Semiannual Report September 2002
                                       OIG Activities

                                     scheme. The scheme involved individuals purportedly submitting
                                     fraudulent SBA loan applications, which inflated the value of gas
SBA preferred lender                 stations, to obtain financing for 100 percent of the inflated purchase
agrees to release SBA of             price. The Agency cost savings was the result of the joint FBI and OIG
guarantee obligations                investigation, diligent efforts of the SBA Houston District Office, and
totaling more than                   the lender’s decision to release SBA’s liability.
$6.5 million based on OIG
                                 •   An SBA preferred lender agreed to cancel SBA’s guaranty obligation on
and FBI investigation.
                                     an SBAExpress loan made to a café owner. The defendant and her
                                     husband were each indicted on one count of insurance fraud by a
                                     District Court Grand Jury in Harris County, Texas. The investigation
                                     determined that the husband disclosed his criminal history in the loan
                                     application that should have made the loan ineligible under the
                                     SBAExpress loan program. The outstanding principal balance of the
                                     loan in liquidation was $122,648. The bank’s decision to release SBA
                                     of its 50 percent liability has resulted in a cost savings of $61,324 to the
                                     Agency. The charges arose out of a fraudulent property insurance
                                     policy that the couple purchased to satisfy the closing requirements for a
                                     $150,000 SBA-guaranteed loan. A fire destroyed the restaurant 3 days
                                     after the bank approved the loan. The couple concealed the extent of the
                                     fire from the bank and obtained disbursement of the loan. At the
                                     closing, the wife signed a general security agreement that required her to
                                     maintain collateral insurance at the restaurant premises. After proof of
                                     insurance was provided, the bank disbursed the loan proceeds, unaware
                                     that the couple was no longer operating the restaurant. Subsequently,
                                     the wife allegedly filed a fraudulent claim on the insurance policy and
                                     defaulted on the loan. Initially, the husband applied for the loan;
                                     however, his name was removed from the application because of his
                                     criminal history. OIG conducted this investigation jointly with the
                                     Bureau of Alcohol, Tobacco, and Firearms.

                                 Proposed Agency Policy on Section 7(a) Guaranty Purchases


                                      OIG reviewed and commented on the Agency’s proposed Policy
                                 Notice on Section 7(a) guaranty purchases. The Agency developed the
                                 Notice in response to OIG’s recommendations that stemmed from its on-
                                 going review of SBA-guaranteed loans and loan processing. OIG
                                 recommended that language be inserted stating that “a purchase review is a
                                 process that serves to minimize erroneous payments by ensuring only loans
                                 that were originated, closed, serviced, and liquidated in accordance with
                                 SBA policy, procedures, and regulations are purchased.” OIG
                                 recommended that lenders be required to submit their credit memoranda and
                                 all supporting documentation for the memoranda as part of any purchase
                                 request to determine if the lender reasonably used its judgment to evaluate
                                 and document repayment ability. OIG further recommended that SBA
                                 obtain the lender’s complete loan file, including an SBA Form 912,
                                 Statement of Personal History, for payment requests on all loans that default


  Semiannual Report September 2002                                                                            23
                                    OIG Activities


                              within 18 months of approval. Program officials adopted many of OIG’s
                              comments and are still considering others.

                              Disaster Loan Program
 OIG finds that disaster      Review of Out-of-Sequence Payments
 assistance recipients were
 paid duplicate benefits            OIG issued a report that found SBA procedures for repaying agencies
 from FEMA and SBA.           for advances needed improvement. To illustrate, OIG reviewed four North
                              Carolina disaster home loans and found that borrowers previously received
                              Individual Family Grant Program (IFGP) funds from the Federal Emergency
                              Management Agency (FEMA). During loan origination, SBA determined
                              that three borrowers were not eligible for the IFGP funds, since they were
                              eligible for the entire disaster loan with SBA. To correct this duplication,
                              SBA loan checks were prepared as co-payable to the borrowers and to the
                              IFGP of North Carolina. The borrowers were supposed to forward these
                              checks to FEMA to reimburse erroneous IFGP payments. However, two of
                              the three borrowers who received co-payment checks totaling $19,800
                              cashed the checks instead of repaying their IFGP payments. The Associate
                              Administrator for Disaster Assistance was briefed on the report and agreed
                              to take action to implement OIG’s recommendations to: develop a more
                              effective method of returning disaster loan proceeds to agencies that make
                              “out-of-sequence” payments, provide FEMA with information concerning
                              the two identified SBA disaster borrowers who have not returned the
                              $19,800 of incorrect disbursements, and in coordination with FEMA,
                              provide information on similar co-payment checks to SBA borrowers
                              receiving IFGP funds. This review was limited to ten borrowers, two of
                              which did not return “out-of-sequence” payments


                                    The following cases illustrate OIG investigations of fraud to obtain
                              disaster loans.

                              •   Both a Carolina Beach, North Carolina, music company and its owner
                                  pled guilty to one count of money laundering. The defendant, who was
                                  the former North Carolina Transportation Secretary, acting as attorney
                                  in fact for his father, obtained two disaster loans totaling $617,200 for
                                  damages associated with Hurricanes Bonnie (1998) and Floyd (1999).
                                  The defendant’s guilty plea was the result of a previous indictment on
                                  one count of mail fraud and six counts of wire fraud. The investigation
                                  disclosed that the principals, through the company, were operating an
                                  illegal gambling business that made it ineligible for disaster loans. The
                                  defendant also falsely claimed that equipment was damaged by the
                                  storms. Further investigation disclosed that loan proceeds were used to
                                  pay pre-disaster debt that violated the loan authorization agreements,
                                  and that the loan proceeds were either mailed or electronically

24                                                                      Semiannual Report September 2002
                                     OIG Activities

                                   transferred to the account of his father. The defendant’s son also pled
                                   guilty to a one-count criminal-information for money laundering and
                                   agreed to testify against his father and grandfather in lieu of being
                                   indicted. Although the defendant’s father was actively involved, he was
                                   not indicted due to the onset of Alzheimer’s disease. The music
                                   company and the defendant also agreed to forfeit $750,000 seized during
                                   this investigation. The indictment also included 268 counts associated
                                   with money laundering and illegal gambling pertaining to the FBI’s part
                                   of the case. OIG initiated this investigation based on a request by the
                                   FBI and the U.S. Attorney’s Office.

                               •   A California physician attempting to start a practice in New York was
                                   indicted on three counts of false statements and one count of conspiracy.
                                   The charges were filed in connection with applications she submitted to
                                   FEMA and SBA for disaster funding pursuant to Hurricane Floyd,
                                   which allegedly damaged her mother’s home in Cortland Manor, New
                                   York. The physician submitted an application to FEMA on behalf of her
                                   mother claiming that the Cortland Manor residence was their primary
                                   residence, when in fact they were living at an apartment rented in New
                                   York City. After receiving a grant of $1,308, the mother falsely claimed
                                   to FEMA in an appeal for more funding that her daughter’s (the
                                   physician) $7,000 medical data scope was stored in the house and
                                   destroyed by the storm. The physician herself also applied for a
                                   business disaster loan from SBA in her own name for her medical
                                   practice, and she represented to SBA that she had approximately
                                   $70,000 worth of medical equipment stored at the Cortland Manor
                                   residence that was ruined by the storm. The physician also claimed that
                                   she had opened a medical practice in Westchester, New York, and
                                   submitted a fraudulent lease to that effect. She was then approved for an
                                   $88,400 loan, of which she received only $10,000 due to her inability to
                                   keep the scheme going. The investigation revealed that there never was
                                   any medical equipment stored in the house, and that in fact the major
                                   item, a $50,000 anesthesia machine, was damaged while it was being
                                   shipped to New York weeks before the hurricane. The physician was
                                   also charged with conspiring with her landlord to defraud SBA in
                                   connection with her mother’s $78,300 loan for the Cortland Manor
                                   residence after it was revealed that much of the damage to the house was
                                   pre-existing, and that the physician directed the landlord to alter
                                   invoices, which he then submitted to SBA to inflate the disaster loan
                                   disbursements. The physician was the second individual who was
                                   criminally prosecuted on this matter. The landlord previously pled
                                   guilty to a criminal-information charging him with wire fraud and two
                                   counts of bank fraud. The investigation was initiated based on a
                                   complaint by a member of the public.




Semiannual Report September 2002                                                                         25
                               OIG Activities


                         Small Business Investment Companies
                              The following narrative illustrates OIG investigations involving fraud
                         in connection with SBICs.

                         •   The former pension plan manager for a New York City area utilities
 Former pension plan         company was arrested by special agents of SBA and the U.S.
 manager arrested for        Department of Labor (DOL/OIG) OIGs. The arrest was based on a
 embezzlement of             sealed complaint charging him with embezzlement of employee benefit
                             plan funds. According to the now-unsealed complaint, the defendant
 employee benefit plan
                             had misused a corporate credit card on more than 60 occasions. He
 funds.                      double and sometimes triple billed for expenses and sought
                             reimbursement for the same expenses from two or more sources,
                             including the utility company and the plan brokers, thus defrauding the
                             company pension plan. The defendant admitted using the money for
                             personal expenses. He was responsible for recommending investments
                             of the utility company pension funds made through various venture
                             capital firms, including a New York City SBIC presently in
                             receivership. The U.S. Attorney’s Office, Eastern District of New York,
                             asked OIG to join DOL/OIG in its ongoing investigation.

                         Surety Guarantees
                         Loss Adjustment Expenses Incurred on a Bonding Company


                              OIG issued a report on the loss adjustment expenses (LAE) incurred
                         on a bonding company. The audit was conducted based on a complaint from
                         the contractor, who believed the surety was charging his company
                         unreasonable legal fees. OIG found that 98 percent of the LAEs claimed by
                         the surety company for the SBA-guaranteed bonds were allocable,
                         allowable, and reasonable. The surety company incurred and was
                         reimbursed its guaranteed percentage by SBA for only $1,547 of LAEs that
                         were not specifically allocable to a claim for loss resulting from the breach
                         of the terms of the bonded contract. The audit also disclosed that SBA did
                         not give the surety company permission to close its files in a timely manner.
                         As a result, the auditors made recommendations to the Acting Associate
                         Administrator, Office of Surety Guarantees ((A)AA/OSG), to recover the
                         Federal share of $1,392 from the surety company for the unallowable LAEs
                         and ensure file closures are approved expediently. The (A)AA/OSG agreed
                         with the recommendations. Final action was completed on one of the two
                         recommendations in this report on August 20, 2002. OSG agreed to take
                         expedient action to approve file closures on requests from sureties to
                         discontinue pursuit of recovery and the office revised SBA’s policies and



26                                                                Semiannual Report September 2002
                                     OIG Activities

                               procedures accordingly to avoid incurrence of unnecessary LAEs in the
                               future.

                               Entrepreneurial Development Programs
                                    T  he following case is an example of fraud involving an
                               Entrepreneurial Development program.

Grant for drug testing         •   An SBA grant to a drug testing company in Pinellas Park, Florida, was
company in Florida                 terminated after an OIG investigation discovered addressed allegations
terminated based on                that the company had made material false statements on its grant
                                   proposal. In the proposal, the president certified that none of the
OIG investigation which            principals of the drug testing company had been convicted of a fraud-
disclosed a felony                 related crime in the past 3 years. The investigation disclosed, however,
scheme.                            that the vice president had been convicted in Florida of a felony scheme
                                   with intent to defraud in August 1999. Pursuant to OIG’s findings, the
                                   director of the grant program terminated the $234,063 grant prior to the
                                   disbursement of any of the funds. The drug testing company
                                   subsequently submitted a request for reimbursement of $122,764 for
                                   expenses it reportedly incurred during the first quarter of its grant
                                   period. Based on an OIG review of the documents the company
                                   provided to support its claim, SBA advised the company that its
                                   documentation was questionable and it would not be reimbursed without
                                   verifiable documentation. The company failed to respond and the
                                   program director advised OIG that none of the grant funds would be
                                   disbursed, resulting in a $234,063 cost savings.

                               Government Contracting and Business
                               Development Program
                                    As a result of OIG investigations during this reporting period, a
                               Section 8(a) Government contractor agreed to a permanent injunction
                               barring him and/or any entity in which he might have a financial interest
                               from doing business as a general contractor, subcontractor, vendor, or
                               supplier with the Government. A second Section 8(a) Government
                               contractor was suspended from receiving all Government contracts with the
                               U.S. Department of Defense as a result of a joint investigation with
                               DOL/OIG and FBI.


                                    The following case illustrates OIG investigations of fraud in
                               connection with the Section 8(a)BD program.

                               •   Both the president of a Raleigh, North Carolina, construction company
                                   and the company pled guilty to a one-count charge of mail fraud. In

Semiannual Report September 2002                                                                         27
                                    OIG Activities


                                  order to induce disbursements of contract funds, the defendant submitted
                                  false payment certification requests under various Army, Navy, Postal
                                  Service, and U.S. Department of Veterans Affairs (VA) Section 8(a)
                                  contracts, stating that all subcontractors and vendors were paid. Under
                                  the plea agreement, the defendant acknowledged responsibility for the
                                  false statements that resulted in total losses of almost $1.3 million on
                                  10 separate Government contracts (3-Army; 2-VA; 4-Navy; 1-Postal
                                  Service). The Government lost an additional $700,000, as a result of
                                  having to re-issue numerous task orders on several contracts that were
                                  not completed by the company. In addition, he and the company agreed
                                  to a permanent injunction (debarment) barring him and/or any entity in
                                  which he might have a financial interest from doing business as a
                                  general contractor, subcontractor, vendor, or supplier with the
                                  Government. OIG initiated this investigation based on a referral from
                                  Army Criminal Investigation Division in Raleigh, North Carolina.

                              Agency Management
                              Former Regional Administrator’s Travel
OIG audits former SBA top-
level executive’s travel
authorizations and requests        O   IG issued a report on the travel of a former SBA regional
                              administrator (RA). The audit was performed at the request of the Chairman
for reimbursements and
                              of the Senate Small Business Committee at the time, and found that the
finds erroneous payments      former RA’s travel did not always comply with travel regulations. The audit
totaling $9,653.34.           also identified erroneous payments totaling $9,653.34, consisting of $828.41
                              for excess travel costs due to indirect travel through his home town and
                              $8,824.34 for other unallowable travel payments. Since SBA allowed RAs
                              to authorize their own travel and the documentation did not always establish
                              whether the travel was essential, OIG concluded that SBA did not
                              appropriately control such travel.

                              The former RA self-authorized travel for 258 duty days during a 2 ½ year
                              period. During this timeframe, out of a possible 128 weekends, he traveled
                              to, from, or through his home town on 52 weekends. On 20 of these
                              weekends, the former RA’s Travel Authorizations and/or Requests for
                              Reimbursement noted he was conducting official SBA business in his home
                              town, rather than solely traveling from or to his home town. While there is
                              no prohibition against taking an indirect route while traveling, the travel
                              regulations are clear that any excess cost must be borne by the traveler as a
                              personal expense and the original trip must have an official Government
                              purpose. The combination of the frequency of trips involving his home
                              town, the inability to reconstruct satisfactory justification for some trips
                              from travel documentation, the use of allowed self-authorization and self-
                              approval of many of these trips, and the identification of instances of excess
                              costs relating to trips through his home town gives the appearance that
                              official Government travel was not appropriately controlled by SBA.

28                                                                      Semiannual Report September 2002
                                       OIG Activities

                                 Accordingly, OIG recommended that safeguards must be implemented to
                                 ensure that SBA has control over official Government travel and eliminate
                                 the appearance of, and possible actual, travel abuse. The report contained
                                 three recommendations to obtain reimbursement from the former RA for the
                                 unallowable travel payments and preclude this situation from recurring. The
                                 CFO and AA/FO agreed with the recommendations and SBA has taken steps
                                 to preclude this situation from recurring in the future. The former RA
                                 disagreed with most of the questioned costs.

                                 SBA’s Controls Over the Access, Disclosure, and Use of Social Security
                                 Numbers by Third Parties


                                      O    IG issued a report on SBA’s controls over the access, disclosure,
                                 and use of SSNs by third parties. The audit was part of a collaborative
                                 Government-wide Presidential Council on Integrity and Efficiency (PCIE)
                                 initiative to assess controls over the use and protection of the SSNs that
                                 agencies collect from individuals. Specific objectives were to determine
OIG audit finds that while       whether SBA: (1) makes legal and informed disclosures of SSNs to third
                                 parties; (2) has appropriate controls over other entities’ access to and use of
SBA is safeguarding and          the SSNs that SBA has collected from individuals; (3) has adequate controls
has adequate control over        over access to individuals’ SSNs maintained in its databases; and (4) has
access to SSNs collected         appropriate controls over contractors’ access to and use of SSNs that SBA
from individuals,                has collected from individuals.
contractor access needs to
                                 The audit found that SBA: (1) makes legal and informed disclosures of
be controlled.                   SSNs to third parties; (2) has appropriate controls over other entities’ access
                                 to and use of SSNs that SBA has collected from individuals; and (3) has
                                 adequate controls over access to individuals’ SSNs maintained in its
                                 databases. SBA does not, however, have appropriate controls over
                                 contractors’ access to and use of SSNs collected from individuals.
                                 Accordingly, additional steps are needed to limit the risks of unauthorized
                                 disclosure of SSN information. OIG made a recommendation to the AA/A to
                                 correct this deficiency. The AA/A responded that she generally agreed with
                                 OIG’s recommendations.

                                 Internal Controls Over Colson Services Corporation’s Contract as
                                 Central Servicing Agent (CSA) for SBA’s Certified Development
                                 Company (CDC) Loan Program


                                      O   IG issued an independent auditor’s report on internal controls over
                                 Colson Services Corporation’s contract as CSA for SBA’s CDC Loan
                                 program. The auditors performed testing and reconciliation procedures over
                                 transaction data for calendar year 2000 and found that controls were
                                 generally in place and effective. The audit identified areas where
                                 improvements can be made such as: (1) reconciliation procedures between
                                 Colson and SBA’s Loan Accounting System (LAS) were not effective (SBA
                                 did not record $22.7 million in CDC loans funded in May 2000); and

  Semiannual Report September 2002                                                                            29
           OIG Activities


     (2) increased oversight of Colson’s compliance with various contract terms
     is needed. There were several instances in which Colson did not adhere to
     contract terms and SBA was unaware of the noncompliance. These
     instances of noncompliance may have cost SBA and the CDC’s thousands of
     dollars in lost interest earnings.

     The report contains recommendations to the CFO and the Associate Deputy
     Administrator for Capital Access (ADA/CA). These recommendations were
     for improvements in reconciliations and increased oversight of the CSA.
     The CFO agreed with the recommendations directed to him. The Associate
     Administrator for Financial Assistance (AA/FA) responded on behalf of the
     ADA/CA. The AA/FA generally agreed that Colson was not complying
     with all contract terms and stated that the noncompliance was primarily
     because the contractual terms conflicted with banking regulations. The
     AA/FA disagreed that SBA should monitor contract compliance directly or
     modify the contract to require Colson to obtain an independent evaluation of
     contract compliance. This issue will be resolved during the audit resolution
     process.

     SBA Employee Conduct Cases

     •   An SBA HQ employee was suspended for 15 days for: (1) being under
         the influence of alcohol on SBA premises; (2) knowledge of theft of
         Government property; (3) making false statements in an official matter;
         and (4) improper use of his Government identification and access card.
         The investigation that led to the suspension resulted from a referral to
         OIG that two computer monitors had been taken from SBA HQ. The
         Federal Protective Service, which had primary jurisdiction, conducted
         an investigation into the matter. Investigative results including Facscard
         records and the building security log showed that the employee and a
         companion entered SBA in the early morning on September 2, 2000, and
         left the building with two boxes. A security guard working at SBA HQ
         found a computer monitor on the sidewalk in front of the building. OIG
         special agents subsequently interviewed the employee and he admitted
         that his companion stole the monitors, but he denied any involvement in
         the theft.

     •   An SBA employee resigned while under investigation by OIG for
         making false statements during his hiring process and security
         background interview. The employee was permitted to resign after
         being advised that he was going to be terminated during his probationary
         period. In an effort to qualify for a higher starting salary, he falsely
         reported earning a salary in excess of $100,000 at his prior employment
         with an internet start-up company. The investigation confirmed that he
         never received any compensation from this company. Based on his false
         statement, he was hired as a GS-13, step 10, rather than a GS-13, step 1.
         The investigation also revealed that he may have made false statements


30                                            Semiannual Report September 2002
                                     OIG Activities

                                   to obtain unemployment benefits from the District of Columbia
                                   Department of Employment Services. These matters have been referred
                                   to the U.S. Attorney’s Office, District of Columbia, Superior Court, for
                                   prosecutorial consideration.

                               Data Quality Guidelines


                                    O    IG reviewed SBA’s proposed data quality guidelines issued
                               pursuant to the requirements of the Treasury and General Government
                               Appropriations Act for Fiscal Year 2001 (the Data Quality Act) and OMB’s
                               Guidelines for Ensuring and Maximizing the Quality, Objectivity, Utility,
                               and Integrity of Information Disseminated by Federal Agencies. OIG
                               believes that SBA’s initial definition of “SBA initiated or sponsored
                               distribution” excluded information disseminated through or pursuant to an
                               SBA-sponsored activity. We believed this exclusion was unwarranted
                               because information prepared by an outside party and disseminated by SBA
                               in a manner that reasonably suggests that SBA agrees with the information
                               or information that SBA directs an outside party to disseminate on its behalf
                               would seem to be the type of information distribution that SBA engages in
                               through its cosponsorship activity. Moreover, SBA’s standard operating
                               procedure for cosponsorships already requires SBA to review and approve
                               cosponsorship material, so it has already undertaken the duty of ensuring the
                               quality and integrity of such information prior to its dissemination. Program
                               officials agreed with our comments and included information disseminated
                               through or pursuant to SBA-cosponsored activity within the coverage of its
                               Data Quality Guidelines.

                               Proposed Legislation: General Services Administration Draft Bill on
                               Meritorious Travel Claims


                                    OIG reviewed and indicated its support for a draft bill that would
                               provide the Administrator of General Services Administration (GSA) with
                               permanent authority to settle claims by Federal employees stemming from
                               travel while on official duty. Under current law, if a Federal employee has a
                               travel claim that cannot be paid under existing law but GSA’s Board of
                               Contract Appeals believes the claim should be paid for equitable reasons, the
                               only way for the employee to be paid is for the GSA Administrator to notify
                               Congress and request a private relief bill. If enacted, the proposed
                               legislation would give authority to the GSA Administrator to order payment
                               in such cases. Congress authorized a pilot program, which apparently
                               worked well but is expiring. Permanent authority to approve travel claims
                               on equitable grounds would benefit Federal employees, eliminate the costs
                               to agencies from having to spend time drafting legislation, and save
                               Congress’ time in considering private relief bills; thus, ultimately the
                               taxpayer would benefit from these cost savings.



Semiannual Report September 2002                                                                          31
                                   OIG Activities


                             Office of Inspector General
                             New Strategic, Operating, and Workforce Transformation Plans


                                  During the second half of FY 2002, OIG invested a significant
                             amount of time and resources refocusing and redefining its priorities and
                             developing a new strategic plan. The Office first redrafted its vision
                             statement to assert itself as an effective catalyst to help SBA achieve the
                             goal of having efficient, effective, results-oriented, integrity-based programs
                             that maximize the use of safe and secure information technology in its
                             operations, and have minimal losses from fraud, abuse, erroneous payments,
                             and inadequate processes. In an effort to further integrate budget and
 OIG develops a new          performance measures, as well as meet the challenges of a changing small
 strategic, operating, and   business environment, OIG also completed work on a new strategic plan.
 workforce transformation    The new plan, covering FY 2003 – 2007, will help guide the Office to
 plan during FY 2002.        fulfillment of our vision and ultimately our mission.

                             SBA operates in a dynamic environment. OIG’s ability to maximize its
                             relevance and value to SBA is closely linked to how well the Office adapts
                             its work within that changing environment and OIG’s ability to affect
                             change. Based on the Office’s analysis of the key issues facing SBA and a
                             review of OIG’s own internal operations, OIG established the following five
                             strategic goals.

                             1. Prevent fraud and unnecessary losses in SBA programs.

                             2. Improve the security over and the accuracy of SBA accounting and
                                management information, including performance data.

                             3. Assist SBA in improving its small business development programs.

                             4. Assist SBA management in identifying and resolving persistent and
                                emerging management issues.

                             5. Strengthen our ability to identify and have maximum impact on the most
                                significant SBA issues.

                             OIG’s strategic plan continues to emphasize prevention and deterrence of
                             waste, fraud, and abuse, but now has a new focus on early identification of
                             risks and management challenges, and a more integrated approach within
                             and across all five of OIG’s divisions.

                             OIG also devoted resources toward implementing a workforce
                             transformation plan that focuses on aligning our human capital with our
                             strategic goals. Both plans were transmitted to OMB and other OIG
                             stakeholders in June and July 2002. As part of the restructuring and

32                                                                     Semiannual Report September 2002
                                     OIG Activities

                               refocusing of the office, OIG has shifted to a biennial office-wide operating
                               plan and reporting process.

                               OIG-Wide Annual Training Conference


OIG holds office-wide               I n May 2002, OIG held its annual OIG-wide training conference.
training conference.           OIG provided training in areas such as: the Office of Special Counsel
                               Whistleblower program; professional liability; diversity and positive work
                               environments; quantitative methods in inspections; bankruptcy fraud; issues
                               in SBA purchased denials of Section 7(a) guaranteed loans; suspension and
                               debarment; effective communication and briefing techniques; OMB’s
                               erroneous payments’ initiative; blood borne pathogens; and post-incident
                               procedures and the legal and liability issues.

                               Office of Security Operations

                                    Pursuant to provisions of the Small Business Act and the Small
                               Business Investment Act, SBA requires applicants for assistance to meet
                               certain character standards before participating in Agency programs. OIG’s
                               Office of Security Operations (OSO) provides a vital service to help SBA
                               ensure that Agency program participants meet the standards by processing
                               name checks and, where appropriate, fingerprint checks on applicants. To
                               make character eligibility determinations, OSO makes use of its on-line
                               connection with FBI’s Machine Readable Data system. When program
                               applicants appear to be ineligible for assistance based on character, OSO
                               makes referrals to program officials for adjudication. During this reporting
                               period, OSO made referrals that resulted in SBA’s business loan program
                               managers declining 73 applications and disaster loan program officials
                               declining 13 applications, totaling more than $21.8 million and nearly $.95
                               million respectively, for character reasons. Those declinations made
                               available that amount of credit for applicants in whom SBA can have
                               confidence of repayment. In addition, officials of SBA’s Section 8(a) and
                               surety bond programs declined, respectively, 13 applications for certification
                               and 3 applications for guaranty. Almost $242 million in loans have been
                               declined during the last 10 years due to character eligibility.

                               OSO also performs background checks to comply with Federal regulations
                               that require Agency employees to have security clearances appropriate for
                               their positions. During this reporting period, OSO initiated 64 background
                               investigations and issued 41 security clearances. OSO also reviewed and
                               adjudicated 92 background investigative reports in accordance with
                               Executive Order 10450 and OMB Circular A-130, and coordinated with
                               SBA’s Office of Disaster Assistance to ensure the timely adjudication of
                               34 derogatory background investigative reports forwarded for review and
                               appropriate action.




Semiannual Report September 2002                                                                           33
                       OIG Activities


                 OIG Fraud Awareness Briefings

                      D    uring the reporting period, OIG conducted 13 briefings to more than
                 550 SBA employees, lenders, and other resource partners as part of its
                 mission to educate its customers on identifying waste, fraud, and abuse.
                 During this reporting period (as the chart below indicates) nearly 55 percent
                 of the investigations initiated by OIG originated from within the Agency in
                 the form of referrals either from program heads or other SBA employees.
                 This cooperation indicates the strong commitment of SBA employees to
                 reducing waste, fraud, and abuse in Agency programs and improving the
                 Agency’s management and control of its programs. The shift in SBA’s role
                 from primarily reviewing and processing loans to increasingly providing
                 oversight of lending practices, has caused OIG to change its briefing
                 strategy. Because continued success will depend increasingly on lender
                 referrals, OIG has expanded its integrity-awareness briefing program to
                 include participating lenders and other interested parties.




         Sources of Investigations from
       April 1 through September 30, 2002
                                                                 SBA

         13.1%                                                   Other Federal
      7.5%                                                       Agencies
                                                                 Private
     17.5%                           54.4%                       Citizens
                                                                 Lenders
         7.5%
                                                                 Other




34                                                        Semiannual Report September 2002
                                            OIG Activities



                                   Direct Investigation Time by Program Area
                                       April 1 through September 30, 2002

     Program Area                        Direct Time %                    Number of Investigations*
                                                                       Closed**               In Progress
     Capital Access                                   75%                           30                      219
     Disaster Assistance                              11%                           42                        68
     Government Contracting and                       11%                             7                       28
     Business Development
     Agency Management                                    3%                        10                        15
     Entrepreneurial Development                          ***                         0                        2

     Total                                           100%                           89                      332

*     Includes civil cases   ** Includes cases canceled         *** Less than ½ percent




                                      Direct Audit Time by Program Area
                                      April 1 through September 30, 2002

    Program Area                         Direct Time %                           Number of Audits
                                                                 Issued                         In Progress
    Capital Access                                    45%                                 9                        10
    Disaster Assistance                                   7%                              1                         1
    Government Contracting and                        10%                                 1                         1
    Business Development
    Agency Management                                 35%                                 5                         9
    Entrepreneurial Development                           3%                              1                         6

    Total                                            100%                             17                           27




      Semiannual Report September 2002                                                                                  35
                                                          Statistical Highlights


                                            FY 2002 6-Month Productivity Statistics
                                             April 1 through September 30, 2002


Office-wide Dollar Accomplishments                                                                                                 Totals

A. Potential Investigative Recoveries and Fines......................................................... $8,179,179.00

B. Loans Not Made as Result of Investigations and Name Checks .......................... $31,329,290.00

C. Disallowed Costs Agreed to by Management ............................................................. $13,882.35

D. Recommendations that Funds Be Put to Better
       Use Agreed to by Management......................................................................... $371,970.97

Total                                                                                                                    $39,894,322.32

Efficiency and Effectiveness Activities

A. Reports Issued ........................................................................................................................... 19
B. Recommendations Issued .......................................................................................................... 86
C. Dollar Value of Costs Questioned ............................................................................... $11,045.34
D. Dollar Value of Recommendations that Funds
        Be Put to Better Use ...................................................................................... $2,261,519.15

Follow-up Activities

A. Recommendations Closed ........................................................................................................ 51
B. Disallowed Costs Agreed to by Management ............................................................ $13,882.35
C. Dollar Value of Recommendations that Funds Be Put to Better Use
       Agreed to by Management................................................................................ $371,970.97
D. Unresolved Recommendations................................................................................................. 84

Legislation/Regulations/SOPs/Other Reviews

A. Legislation Reviewed ................................................................................................................ 69
B. Regulations Reviewed ............................................................................................................... 23
C. Standard Operating Procedures Reviewed ................................................................................ 12
D. Other Issuances Reviewed* .................................................................................................... 125

* This includes policy notices, procedural notices, Administrator’s action memoranda, and other communications, which
frequently involve the implementation of new programs and policies.




36                                                                                                                    Semiannual Report September 2002
                                                           Statistical Highlights

Fraud Deterrence Activities

A. Total Cases .............................................................................................................................. 421
B. Closed Cases.............................................................................................................................. 89
C. Pending Cases............................................................................................................................ 16
D. Open Cases.............................................................................................................................. 316
E. Subjects Currently Under Investigation................................................................................ 1,709
F. Cases Referred to FBI or Other Agencies for Investigation. ..................................................... 14

Summary of Indictments and Convictions

A. Indictments from OIG Cases..................................................................................................... 19
B. Convictions from OIG Cases..................................................................................................... 15

Summary of Recoveries and Management Avoidances

A. Potential Recoveries and Fines as a Result of
        OIG Investigations ......................................................................................... $8,179,179.00
B. Loans/Contracts Not Approved as a Result of OIG Investigations ........................ $8,582,697.00
C. Loans/Contracts Not Approved as a Result of the Name
        Check Program............................................................................................. $22,746,593.00

Total:       ..................................................................................................................... $39,508,469.00

SBA Personnel Actions Taken as a Result of Investigations

A. Dismissals ................................................................................................................................... 0
B. Resignations/Retirements ............................................................................................................ 1
C. Suspensions ................................................................................................................................. 1
D. Reprimands ................................................................................................................................ 0

Program Actions Taken as a Result of Investigations

A. Suspensions ................................................................................................................................. 1
B. Debarments.................................................................................................................................. 1
C. Removals from Program.............................................................................................................. 1
D. Other Program Actions................................................................................................................ 1

Summary of OIG Fraud Line Operation

A. Total Fraud Line Calls/Letters ............................................................................................. 1,110
B. Total Calls/Letters Referred to Investigations Division ............................................................ 11
C. Total Calls/Letters Referred to Program Offices or Other Federal
        Investigative Agencies ...................................................................................................... 51
D. Total Calls/Letters with no Action Appropriate................................................................... 1,048




      Semiannual Report September 2002                                                                                                                37
                                                          Statistical Highlights


                                         FY 2002 Full Year Productivity Statistics
                                        October 1, 2001 through September 30, 2002


Office-wide Dollar Accomplishments                                                                                                 Totals

A. Potential Investigative Recoveries and Fines....................................................... $17,571,031.00

B. Loans Not Made as Result of Investigations and Name Checks .......................... $63,420,121.00

C. Disallowed Costs Agreed to by Management ........................................................... $102,312.36

D. Recommendations that Funds Be Put to Better
       Use Agreed to by Management......................................................................... $742,600.47

Total                                                                                                                    $81,836,064.83

Efficiency and Effectiveness Activities

A. Reports Issued ........................................................................................................................... 35
B. Recommendations Issued ........................................................................................................ 121
C. Dollar Value of Costs Questioned ............................................................................... $13,882.35
D. Dollar Value of Recommendations that Funds
        Be Put to Better Use ...................................................................................... $2,812,367.65

Follow-up Activities

A. Recommendations Closed ...................................................................................................... 131
B. Disallowed Costs Agreed to by Management .......................................................... $102,312.36
C. Dollar Value of Recommendations that Funds Be Put to Better Use
       Agreed to by Management................................................................................ $742,600.47
D. Unresolved Recommendations............................................................................................... 124

Legislation/Regulations/SOPs/Other Reviews

A. Legislation Reviewed ................................................................................................................ 76
B. Regulations Reviewed ............................................................................................................... 37
C. Standard Operating Procedures Reviewed ................................................................................ 23
D. Other Issuances Reviewed* .................................................................................................... 209

* This includes policy notices, procedural notices, Administrator’s action memoranda, and other communications, which
frequently involve the implementation of new programs and policies.




38                                                                                                                    Semiannual Report September 2002
                                                           Statistical Highlights

Fraud Deterrence Activities

A. Total Cases ............................................................................................................................ *489
B. Closed Cases............................................................................................................................ 157
C. Pending Cases............................................................................................................................ 16
D. Open Cases.............................................................................................................................. 316
E. Subjects Currently Under Investigation................................................................................ 1,709
F. Cases Referred to FBI or Other Agencies for Investigation. ..................................................... 17
* OIG converted to a new Investigations MIS system. Based on numbers generated by this system, there is a discrepancy in the total cases for the full-year.


Summary of Indictments and Convictions

A. Indictments from OIG Cases................................................................................................... *42
B. Convictions from OIG Cases..................................................................................................... 47
*OIG obtained 2 indictments during the first half of the reporting period that were not reported in the March 2002 SAR.


Summary of Recoveries and Management Avoidances

A. Potential Recoveries and Fines as a Result of
        OIG Investigations ....................................................................................... $17,571,031.00
B. Loans/Contracts Not Approved as a Result of OIG Investigations ...................... $27,658,669.00
C. Loans/Contracts Not Approved as a Result of the Name
        Check Program........................................................................................... *$34,732,914.00

Total:       ..................................................................................................................... $80,991,152.00
*The 6-month statistic reported in the Spring SAR was incorrect.

SBA Personnel Actions Taken as a Result of Investigations

A. Dismissals ................................................................................................................................... 0
B. Resignations/Retirements ............................................................................................................ 3
C. Suspensions ................................................................................................................................. 1
D. Reprimands ................................................................................................................................ 0

Program Actions Taken as a Result of Investigations

A. Suspensions ................................................................................................................................. 4
B. Debarments.................................................................................................................................. 1
C. Removals from Program.............................................................................................................. 1
D. Other Program Actions................................................................................................................ 1

Summary of OIG Fraud Line Operation

A. Total Fraud Line Calls/Letters ............................................................................................. 1,755
B. Total Calls/Letters Referred to Investigations Division ............................................................ 15
C. Total Calls/Letters Referred to Program Offices or Other Federal
        Investigative Agencies .................................................................................................... 101
D. Total Calls/Letters with no Action Appropriate................................................................... 1,639

      Semiannual Report September 2002                                                                                                                        39
        Inspector General Act Statutory Reporting Requirements



 The specific reporting requirements prescribed in the Inspector General Act of 1978, as amended by the
 Inspector General Act Amendments of 1988, are listed below.


 Source                                                                                  Pages
 Section 4(a)(2 )    Review of Legislation and Regulations                            23-24, 31

 Section 5(a)(1)     Significant Problems, Abuses, and Deficiencies                       3-33

 Section 5(a)(2)     Recommendations with Respect to Significant Problems, Abuses,
                     And Deficiencies                                                     3-34

 Section 5(a)(3)     Prior Significant Recommendations Not Yet Implemented                   45

 Section 5(a)(4)     Matters Referred to Prosecutive Authorities                         46-52
 Section 5(a)(5)
  And 6(b)(2)        Summary of Instances Where Information Was Refused                   None

 Section 5(a)(6)     Listing of Audit Reports                                                42

 Section 5(a)(7)     Summary of Significant Audits                                        3-30

 Section 5(a)(8)     Audit Reports with Questioned Costs                                    43

 Section 5(a)(9)     Audit Reports with Recommendations that Funds Be Put to Better Use     43

 Section 5(a)(10)    Summary of Reports Where No Management Decision Was Made               44

 Section 5(a)(11)    Significant Revised Management Decisions                             None

 Section 5(a)(12)    Significant Management Decisions with Which OIG Disagreed            None




40                                                                            Semiannual Report September 2002
                                              TABLE OF APPENDICES
Appendix                                                                                                                       Page
Appendix I – Audit Reports Issued.............................................................................................42

Appendix II

Part A – Inspector General-Issued Audit Reports
         With Questioned Costs.................................................................................................43

Part B – Inspector General-Issued Audit Reports
         With Recommendations that Funds Be Put to Better Use ...........................................43

Part C – Inspector General-Issued Audit Reports
         With Non-Monetary Recommendations ......................................................................44

Part D – Inspector General-Issued Audit Reports
         With Overdue Management Decision..........................................................................44

Part E – Significant Audit Reports
         Without Final Action ...................................................................................................45

Appendix III – Six Month Arrested/Indicted/Convicted Summary ............................................46

Appendix IV – Six Month Sentencing Summary .......................................................................49




   Semiannual Report September 2002                                                                                                   41
                                               APPENDIX I
                                    Audit and Other OIG Reports Issued
                                    April 1 through September 30, 2002

                     TITLE                          NUMBER       ISSUE     QUESTIONED        FUNDS FOR
                                                                 DATE        COSTS            BETTER
                                                                                                USE
                 Capital Access
Audit of Borrowers with Prior Defaulted Loans         2-19       5/28/02                     $667,500.00
Audit of SBA-Guaranteed Loan                          2-21       8/5/02                       $93,689.00
Audit of SBA-Guaranteed Loan to RSC Enterprises,      2-23       8/7/02                      $197,751.97
Inc.
Audit of LAEs on Quality Trust, Inc.                  2-24       8/19/02     $1,392.00
SBA’s Experience with Defaulted Franchise Loans       2-27       9/16/02

Audit of Internal Control Over Colson Services        2-29       9/16/02
Corporation’s Contract as Central Servicing Agent
for SBA’s Certified Development Company Loan
Program
SBA-Guaranteed Loan to Earth Treasures, Inc.          2-30       9/24/02                      $84,911.18
Impact of Loan Splitting on Borrowers and SBA         2-31       9/30/02
Audit of SBA-Guaranteed Loan                          2-32       9/30/02                      $450,559.00
Audit of Early Defaulted Loans                        2-35       9/30/02                      $747,308.00
                  Program sub-total                 10 reports               $1,392.00       $2,241,719.15
                Disaster Assistance
Review of Out-of-Sequence Payments                     2-26      9/3/02                       $19,800.00
                  Program sub-total                  1 report                   $0            $19,800.00
     Government Contracting and Business
                    Development
7(j) Management and Technical Assistance Program       2-33      9/30/02
                  Program sub-total                  1 report                   $0                $0
          Entrepreneurial Development
Georgia District Office Sponsorship Activities         2-25      8/26/02
                  Program sub-total                  1 report                   $0                $0
               Agency Management
FY 2001 Financial Statements Management Letter        2-17       4/12/02
FISCAM                                                2-18       5/6/02
Modernizing Human Capital Management                  2-20       5/29/02
Travel of Former Regional Administrator               2-22       8/7/02      $9,653.34
SBA’s Information Security Program                    2-28       9/12/02
Use of Social Security Numbers                        2-34       9/30/02
                  Program sub-total                 6 reports                $9,653.34            $0

TOTALS (all programs)                               19 reports              $11,045.34      $2,261,519.15



42                                                                         Semiannual Report September 2002
                                                  APPENDIX II - Part A
                                            Audit Reports with Questioned Costs
                                            April 1 through September 30, 2002

                                                                 REPORTS         RECs*                COSTS**
                                                                                             QUESTIONED UNSUPPORTED
     A.      For which no management decision had                      1             1               $2,837.01                        $0
             been made by March 31, 2002
     B.      Which were issued during the period                       2             2             $11,045.34                         $0
             Subtotals (A + B)                                         3             3             $13,882.35                         $0
     C.      For which a management decision was                       3             3             $13,882.35                         $0
             made during the reporting period
             (i)    Disallowed costs                                   3             3             $13,882.35                         $0
             (ii) Costs not disallowed                                 0             0                       $0                       $0
     D.      For which no management decision had                      0             0                       $0                       $0
             been made by September 30, 2002
* Recommendations
** Questioned costs are those which are found to be improper, whereas unsupported costs may be proper but lack documentation.



                                          APPENDIX II - Part B
                    Audit Reports with Recommendations that Funds Be Put to Better Use
                                    April 1 through September 30, 2002
                                                              REPORTS             RECs*                 RECOMMENDED
                                                                                                          FUNDS FOR
                                                                                                         BETTER USE

   A.       For which no management decision                       2                  2                                $180,219.00
            had been made by March 31, 2002
   B.       Which were issued during the period                    7                  7                              $2,261,519.15
            Subtotals (A + B)                                      9                  9                              $2,441,738.15
   C.       For which a management decision was                    3                  3                               $377,970.97
            made during the reporting period
            (i)    Recommendations agreed to                       3                  3                                $371,970.97
                   by SBA management
            (ii)   Recommendations not agreed                      0                  0                                   $5,400.00
                   to by SBA management
   D.       For which no management decision                       6                  6                              $2,063,767.18
            had been made by September 30, 2002
* Recommendations


    Semiannual Report September 2002                                                                                              43
                                          APPENDIX II - Part C
                            Audit Reports with Non-Monetary Recommendations
                                    April 1 through September 30, 2002

                                                                      REPORTS            RECOMMENDATIONS



     A.      For which no management decision had been                     7*                       34*
             made by March 31, 2002
     B.      Which were issued during the period                           12                        71
             Subtotals (A + B)                                             19                       105
     C.      For which a management decision was made (for                 10                        38
             at least one recommendation in the report) during
             the reporting period

     D.      For which no management decision (for at least                13                        67
             one recommendation in the report) had been made
             by September 30, 2002



 * Adjusted to reflect 8 recommendations (audit report 2-12) which were not included in the Spring 2002 SAR and 5 recommendations
(audit report 1-19) where management decisions had been made on 2/16/02.


                                         APPENDIX II – Part D
                         Issued Audit Reports with Overdue Management Decisions
                                           September 30, 2002

               TITLE                      NUMBER         ISSUED                      STATUS
  PLP Oversight Process                     1-19          9/27/01 Negotiating with program officials.
                                                                  SBA officials are working with outside contractor
  Asset Sale Due Diligence Contract          2-16         3/29/02 to determine appropriate management response.




44                                                                                  Semiannual Report September 2002
                                            APPENDIX II - Part E
                       Significant Audit Reports Described in Prior Semiannual Reports
                                 Without Final Action as of September 30, 2002
 Report                                        Title                                   Date         Date of                 Final
 Number                                                                                Issued       Management              Action
                                                                                                    Decision                Target
43H006021      8(a) Continuing Eligibility                                              9/30/94         10/30/94            10/30/02
87H002017      NOAA Computer Contracts                                                  6/18/98         11/19/01            7/31/02
9-23           Survey of Electronic Records Management                                  9/15/99         11/30/99            4/15/03
0-14           7(a) Service Fee Collection                                              3/30/00         8/22/00             9/30/03
0-15           SBA’s Proposed Systems Development Methodology                           3/30/00         9/29/00             9/20/02
0-19           SDB Certification Program Obligations & Expenditures                     6/30/00         3/30/01             9/30/02
0-25           GPRA - SBIC Program                                                       9/7/00         12/27/00             11/1/02
0-26           GPRA - Surety Bond Guarantee Program                                     9/25/00          1/30/01            10/31/02
0-28           Rhode Island District Advisory Council                                   9/29/00            ***               5/31/02
0-29           MBELDEF Cosponsorship                                                    9/30/00            ***               9/30/02
0-30           SBA Administration of MBELDEF                                            9/30/00          3/26/01               **
0-31           Boscart Construction, Inc.                                               9/30/00            ***                  **
1-01           GPRA - 7(a) Business Loan Program                                        12/4/00            ***              12/31/02
1-09           SBA’s Planning and Assessment for Implementing PDD 63                    3/26/01          9/27/01            10/30/02
1-11           GPRA – MSB/COD Program                                                   3/27/01          9/28/01               **
1-12           SBA’s Information Systems Controls – FY2000                              3/27/01            ***                 **
1-14           Paper Report Production                                                  8/3/01          12/21/01            11/30/02
1-15           FY 2000 Financial Statements – Management Letter                         8/15/01          10/1/01             9/14/02
1-16           SBA’s Follow-up On SBLC Examinations                                     8/17/01          9/25/01            12/31/03
1-19           PLP Oversight Process                                                    9/27/01          8/27/02            12/31/02
A1-05          SBA’s Use of Government Cars and Hired Car Services                      9/27/01          1/15/02             8/30/02
1-20           Agreed-upon Procedures Report on Sensitive Payments                      9/28/01         12/18/01               **
1-21           SBA’s UNIX Operating Systems                                             9/28/01          1/28/02             6/30/03
A1-06          Evaluation of SBA’s Computer Security Program                            9/28/01            ***                 **
2-04           SBA’s FY 2001 Financial Statements                                       2/27/02            ***                 **
2-12           Improvements in the SBLC Oversight Process                               3/20/02          8/27/02               **
**   Target dates vary with different recommendations. *** Management decision dates vary with different recommendations.




     Semiannual Report September 2002                                                                                                  45
                                             APPENDIX III
                             Six Month Arrested/Indicted/Convicted Summary




State   Program   Alleged Violation(s) Prosecuted                                           Arrested/         Investigated
                                                                                            Indicted/         Jointly
                                                                                            Convicted/        With. . .

CA      DL        A physician practicing in California, attempting to start a practice in   Medical           None
                  New York, was indicted on three counts of false statements and one        physician
                  count of conspiracy. The charges were filed in connection with false      indicted
                  applications that she submitted to FEMA and SBA for $88,400 in
                  disaster relief funding pursuant to Hurricane Floyd. *
IL      BL        To obtain a $1.25 million SBA-guaranteed bank loan, an SBA loan           SBA loan          None
                  packager and business broker aided the preparation and filing of          packager and
                  fraudulent income tax returns which were used in the SBA loan             business broker
                  package and later with the IRS. *                                         indicted
IL      BL        Another defendant in above case fabricated documents produced to          Real estate       None
                  SBA/OIG by the attorney and others in response to grand jury              attorney pled
                  subpoenas.                                                                guilty
IL      BL        To obtain a $400,000 SBA-guaranteed loan a businesswoman signed           Businesswoman     FBI
                  an affidavit stating that she was individually, and as a corporation,     pled guilty
                  current on all Federal and state taxes, when she and the company had
                  a tax debt totaling more than $1 million.
IL      BL        Former president of a mergers and acquisition company submitted an        Businessman       FBI
                  SBA Personal Financial Statement, in connection with a $954,000           charged
                  SBA-guaranteed loan, that failed to disclose a significant number of
                  liabilities. *
KY      BL        A company vehicle was individually titled to the businessman, with        Businessman       None
                  the proceeds from the sale of the vehicle retained for his personal       and guarantor
                  use. The guarantor along with the president submitted fraudulent          pled guilty
                  invoices, to obtain a $250,000 SBA-guaranteed loan, claiming that
                  they purchased equipment.
NY      SBIC      Former pension plan manager for a utilities company embezzled             Pension plan      DOL/OIG
                  employee benefit plan funds for personal expenses. He was                 manager
                  responsible for recommending investments of a utility company’s           arrested
                  pension funds made through various venture capital firms, including
                  a New York City small business investment company in
                  receivership. *
NC      DL        A music company and its owner pled guilty to one count of money           Business owner    FBI
                  laundering. The defendant, acting as attorney for his father, obtained    pled guilty
                  two disaster loans totaling $617,200 for damages associated with
                  Hurricanes Bonnie and Floyd. The guilty plea was the result of a
                  previous indictment on one count of mail fraud and six counts of
                  wire fraud. The investigation disclosed that during this time period,
                  the principals, through the company, were operating an illegal
                  gambling business that made it ineligible for the disaster loans. The
                  defendant also fraudulently claimed that machinery and equipment
                  were damaged by the storms and misused loan proceeds to pay off
                  pre-disaster debt. *




46                                                                                    Semiannual Report September 2002
                                                 APPENDIX III
                                 Six Month Arrested/Indicted/Convicted Summary
                                       April 1 through September 30, 2002


State   Program    Alleged Violation(s) Prosecuted                                             Arrested/          Investigated
                                                                                               Indicted/          Jointly
                                                                                               Convicted/         With. . .

NC      8(a)BD     Construction company and its president pled guilty to a one-count           Construction       None
                   charge of mail fraud and acknowledged responsibility for submission         company
                   of false payment certifications (false statements) that resulted in total   president pled
                   losses of almost $1.3 million on 10 separate Government contracts.          guilty
                   He and the company agreed to a permanent injunction barring him
                   and/or any entity in which he might have a financial interest from
                   doing business with the Government. *
OH      BL         Businessman intentionally prepared and submitted false invoices to          Businessman        None
                   the participating lender bank and SBA to obtain a $337,500 SBA-             charged
                   guaranteed loan and used the proceeds to pay for unauthorized
                   business and personal debts. *
OH      BL         Husband and wife defaulted on their $200,000 SBA-guaranteed loan            A couple           None
                   then had collateral, almost all of the woodwork from the first floor of     indicted
                   their bed and breakfast, removed, and sold for personal benefit. *
OR      BL         Businessman made false statements on four SBA-guaranteed loans              Businessman        FBI
                   with two participating lenders. Additionally, he used false social          indicted
                   security numbers and failed to disclose prior bankruptcies,
                   judgments, other business interests, and previous criminal history. *
PA      8(a)BD     A former SBA Section 8(a) program participant conspired to making           Section 8(a)       NCIS,
                   material false statements and representations to SBA by falsely             program            VA/OIG,
                   stating he did not control a Section 8(a) certified construction firm,      participant
                   when in fact he ran the company. Additionally, he caused fictitious         charged in
                                                                                                                  DCIS,
                   financial statements to be mailed to an insurance company who               information        USCS
                   relied on the false financial statements to issue bonding to the
                   construction company. As a result of the construction company’s
                   defaults on contracts, the insurance company paid over $2.9 million
                   to subcontractors and suppliers in payment bonds and incurred an
                   additional $3 million in losses on performance bonds to have the
                   contracts completed.
TX      BL         Defendants submitted a loan package with fraudulent personal                Loan broker        FBI
                   financial statements and a false purchase contract that inflated the        and two clients
                   price of the motel from $2 million to $2.7 million. Fraudulent copies       indicted
                   of cashier’s checks were submitted as proof of their required equity
                   injection. *
TX      BL         In connection with the above case and along with the other                  Businessman        FBI
                   defendants, another businessman submitted false documents. *                indicted
TX      BL         The couple concealed from the lender the extent of a fire that              A couple           ATF
                   destroyed their restaurant 3 days after the bank approved the loan          indicted
                   and provided a fraudulent property insurance policy to satisfy the
                   closing requirements for a $150,000 SBA-guaranteed loan. The
                   husband’s name was removed from the application because of his
                   criminal history.
TX      BL         The principals falsified nine Federal tax returns, six IRS tax return       Two                TIGTA
                   verifications, forged two fuel company leases, and falsified their          businessmen
                   $85,000 capital injection in connection with a $355,000 SBA-                agreed to pre-
                   guaranteed loan for a service station. *                                    trial diversions
     Semiannual Report September 2002                                                                                       47
                                                   APPENDIX III
                                   Six Month Arrested/Indicted/Convicted Summary



State   Program        Alleged Violation(s) Prosecuted                                          Arrested/     Investigated
                                                                                                Indicted/     Jointly
                                                                                                Convicted/    With. . .

UT      BL             The part-owner obtained a $905,000 SBA loan to purchase a                Businessman   Utah
                       building in the name of a laboratory by falsely representing that he     charged       County
                       had authorization from the board of directors of the lab and that they
                       were guaranteeing the loan. The businessman represented to the
                                                                                                              Sheriff’s
                       board that they would be leasing a new building from a disinterested                   Office
                       third party and collected excessive lease payments from the lab
                       under a fabricated name via a post office box. *
VA      BL             The president of a defunct soap company had previously made false        Company       None
                       statements to obtain a $290,000 SBA-guaranteed loan and left the         president
                       country. He and his attorney agreed to coordinate his return with the    arrested
                       U.S. Attorney’s Office and SBA/OIG.

*    This case is further discussed in the narrative section of this report.

Program codes: BL=business loans, DL=disaster loans, 8(a)BD=Section 8(a) business development, SBIC=small business investment
companies

Joint-investigation Federal agency acronyms: ATF=Bureau of Alcohol, Tobacco, and Firearms DCIS=Defense Criminal Investigative
Service; DOL/OIG=Department of Labor OIG; FBI=Federal Bureau of Investigation; NCIS=Naval Criminal Investigative Service;
TIGTA=Treasury Inspector General for Tax Administration; USCS=Customs Service; VA/OIG=Veterans Affairs Department OIG




48                                                                                        Semiannual Report September 2002
                                                      APPENDIX IV
                                          Six Month Sentencing Summary
                                         April 1 through September 30, 2002



State    Program    Alleged Violation(s) Prosecuted                              Confinement Time and            Investigated
                                                                                 Dollar Results (Criminal        Jointly
                                                                                 Restitution/Fines/Etc.)         With. . .

AZ      BL          President and his partner, along with a friend, created a    President received 5 years      FBI
                    fraudulent $400,000 promissory note, in connection with      probation, 1½ years halfway
                    a $1 million SBA-guaranteed loan, to give the impression     house confinement, $906,000
                    that the president and his partner, individually and         restitution (jointly with
                    through the corporation had a greater debt obligation,       secretary-treasurer)
                    which would justify a larger loan from the lender. The
                    friend received a $150,000 check at the closing and then
                    endorsed the check to the president.
AZ      BL          Secretary-treasurer of company of above case schemed         Secretary-treasurer received    FBI
                    with the company president and a friend to defraud SBA.      5 years probation, $906,000
                                                                                 restitution (jointly with
                                                                                 president)
AZ      BL          The couple devised a “no money down” plan for clients        Husband: 70 months in           FBI
                    interested in purchasing a business at 100 percent           prison, 3 years probation
                    financing who would have otherwise not qualified for the     Wife: 3 years probation
                    loan. The scheme inflated the purchase price to cover the    Both defendants jointly:
                    actual selling price plus the down payment or cash           $4.8 million restitution
                    injection. The couple also arranged for third party
                    injectors to loan the required down payment to the
                    borrowers to falsely prove they had the cash injection.
                    After closing the couple received an inflated commission
                    and arranged for a portion of the commission to be wired
                    back to the third party injectors.
AZ      BL          Businessman claimed on his Personal Financial                90 days community               FBI
                    Statement that he had $140,000 worth of stock in             confinement in a halfway
                    restaurants and that he had $471,949 in earned fees in       house, 90 days home
                    connection with a $900,000 SBA-guaranteed loan to            detention, 3 years supervised
                    purchase six fast food restaurants. He allowed his           release $5,000 fine, $172,000
                    brokerage firm to obtain a temporary cash injection from     restitution
                    a third party. The defendant obtained a real estate sales
                    license so that he could receive a commission for the sale
                    of the six franchises he purchased through the business
                    brokerage firm. A portion of the commission was to be
                    used to repay the third party that made his cash
                    injection.*
CO      BL          Owner failed to disclose approximately $250,000 in           1 day incarceration, 120 days   FBI
                    business debt and two pending lawsuits on her $100,000       home detention, 5 years
                    LowDoc loan application. Additionally, part of the loan      supervised release, 150 hours
                    proceeds was used for personal expenses, while failing to    community service, $83,423
                    pay business debts. *                                        restitution and seek
                                                                                 psychological treatment




     Semiannual Report September 2002                                                                                    49
                                                    APPENDIX IV
                                        Six Month Sentencing Summary
                                       April 1 through September 30, 2002



State   Program   Alleged Violation(s) Prosecuted                              Confinement Time and             Investigated
                                                                               Dollar Results (Criminal         Jointly
                                                                               Restitution/Fines/Etc.)          With. . .

IL      BL        Contracting company president signed an affidavit, in        12 months and 1 day in           FBI
                  connection with a $400,000 SBA-guaranteed loan,              prison, 2 year supervised
                  whereby she attested that she was individually, and as a     release, $345,820 restitution
                  corporation, current on all Federal and state taxes, when
                  at the time both she and the company had a tax debt
                  totaling over $1 million. *
KS      BL        Bank president and bank, in connection with an SBA-          Settlement agreement that        USSS
                  guaranteed loan to a foam core panel manufacturing           bank would pay $250,000,
                  plant, submitted a falsely redacted appraisal to SBA,        release SBA from guaranty
                  claimed the borrowers had excellent credit history when      liability of approximately
                  they had failed to obtain or review any credit report,       $570,505, president nor
                  falsely certified there had been no substantial adverse      would bank participate in any
                  change in financial condition of the borrower, when upon     SBA loan program for
                  learning that the borrower would not receive a $500,000      5 years
                  grant, they demanded additional security for the SBA
                  loan. *
KY      BL        Former employee of a roadside construction company co-       Employee received 3 years        None
                  owned by his brother, allowed a company vehicle to be        probation
                  individually titled to him with the proceeds from the sale
                  of the vehicle retained by the former employee for
                  personal use.
MO      8(a)BD    President and Section 8(a) construction company              President was placed on          FBI,
                  intentionally devised a scheme to defraud and obtain         probation for 3 years, ordered   DOL/OIG
                  money from insurance companies that insured the              to pay a $30,000 fine,
                  company’s property and equipment. A previous                 $108,771.12 in restitution
                  indictment charged that the defendants participated in       ($95,000 to SBA), and a
                  illegal kickbacks, mail fraud, false statements to SBA,      $300 special assessment.
                  and major contract fraud against the U.S.                    Company was placed on
                                                                               probation for 5 years, ordered
                                                                               to pay a $48,000 fine,
                                                                               $90,771.72 in restitution
                                                                               ($77,000 to SBA), and a
                                                                               $600 special assessment.
                                                                               All counts other than mail
                                                                               fraud were dismissed




50                                                                                  Semiannual Report September 2002
                                                     APPENDIX IV
                                          Six Month Sentencing Summary
                                         April 1 through September 30, 2002



State    Program    Alleged Violation(s) Prosecuted                            Confinement Time and            Investigated
                                                                               Dollar Results (Criminal        Jointly
                                                                               Restitution/Fines/Etc.)         With. . .

NJ      BL          The defendants failed to purchase machinery and fixtures   President of original           EPA, State
                    for which the $500,000 SBA-guaranteed loan was             company: 18 months              of New
                    intended, provided a forged landlord waiver in applying    probation, $4,000 fine,
                    for the loan, and passed three forged checks to banks.     $25,000 restitution State of
                                                                                                               Jersey-
                    The defendants also discharged chemical and industrial     New Jersey. Principal of        Division of
                    wastes associated with the process of metal plating.       original company:               Criminal
                                                                               18 months probation, $3,000     Justice
                                                                               fine, $75,000 restitution to
                                                                               New Jersey. President of
                                                                               successor company: 5 years
                                                                               probation, $4,000 fine,
                                                                               $125,000 restitution to New
                                                                               Jersey. Successor company:
                                                                               $5,000 fine
NY      SBIC        Former SSBIC board member misappropriated SBA              6 years incarceration,          IRS,
                    funds by extending loans to small businesses affiliated    followed by 3 years             HUD/OIG,
                    with the SSBIC’s officers and directors; and concealed     probation. The defendant
                    these improper loans by submitting fraudulent documents    was also ordered to pay
                                                                                                               ED/OIG
                    to SBA                                                     $11,659,499 in restitution to
                                                                               other Government agencies.
OK      BL          Co-borrowers entered into a final settlement agreement     Agreement to pay $101,000       None
                    with the U.S. Attorney’s Office during a pending           to SBA
                    SBA/OIG investigation into the alleged conversion of
                    collateral that was pledged.
PA      8(a)BD      President of a defunct Section 8(a) construction company   2 months in jail and 5 years    NCIS and
                    falsely represented to SBA that he was the 100 percent     on probation. He was also       VA/OIG
                    owner of the construction company, and submitted false     ordered to pay $60,000 in
                    progress payment certifications on a $1.6 million          restitution to the bonding
                    contract.                                                  company and a $200 special
                                                                               assessment fee.
TX      BL          The husband (co-borrower) disclosed his criminal history   Preferred lender agreed to      ATF
                    in the loan application that should have made the loan     cancel SBA’s 50 percent
                    ineligible under the SBAExpress loan program. *            guaranty obligation on an
                                                                               SBAExpress loan with a
                                                                               balance of $122,648
TX      BL          Businessman presented documents to the bank                4 months incarceration,         FBI
                    representing that his company had purchased equipment      4 months home confinement,
                    for $131,675, when no such purchase was made. *            5 years supervised release,
                                                                               $99,191 restitution




     Semiannual Report September 2002                                                                                  51
                                                            APPENDIX IV
                                                Six Month Sentencing Summary
                                               April 1 through September 30, 2002



State     Program       Alleged Violation(s) Prosecuted                           Confinement Time and         Investigated
                                                                                  Dollar Results (Criminal     Jointly
                                                                                  Restitution/Fines/Etc.)      With. . .

TX        BL            Nine defaulted SBA-guaranteed loans were identified in    Preferred lender agreed to   FBI
                        an alleged fraudulent “flipping” scheme. *                release SBA from guaranty
                                                                                  totaling more than
                                                                                  $6.5 million
TX        BL            Former business owner repaid balance due on his loan as   Repaid $181,351 to SBA and   TIGTA
                        a result of a SBA/OIG investigation                       the non-bank participating
                                                                                  lender

*    This case is further discussed in the narrative section of this report.

Program codes: BL=business loans, 8(a)BD=Section 8(a) business development, SBIC=small business investment companies

Joint-investigation Federal agency acronyms: ATF=Bureau of Alcohol, Tobacco, and Firearms; DOL/OIG=Department of Labor
OIG; ED/OIG= Department of Education OIG; EPA=Environmental Protection Agency; FBI=Federal Bureau of Investigation;
HUD/OIG= Housing and Urban Development OIG; IRS=Internal Revenue Service; NCIS=Naval Criminal Investigative Service;
TIGTA=Treasury Inspector General for Tax Administration; USSS=United States Secret Service; VA/OIG=Veterans Affairs
Department OIG




52                                                                                    Semiannual Report September 2002
   MAKE A DIFFERENCE
 To promote integrity, economy, and efficiency, we encourage
 you to report instances of fraud, waste, or mismanagement to the
 SBA OIG FRAUD LINE.*



                                       C A LL
                         1-800-767-0385 (Toll Free)
                    202-205-7151 (Washington, DC, Area)


                         Write or Visit
                       U.S. Small Business Administration
                           Office of Inspector General
                             Investigations Division
                        409 Third Street, SW. (5th Floor)
                             Washington, DC 20416

                          Or E-mail Us At OIG@SBA.GOV

*Upon request your name will be held in confidence.
